<html>
<title> - [H.A.S.C. No. 114-46] POTENTIAL IMPLICATIONS IN THE REGION OF THE IRAN DEAL</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






 
                         [H.A.S.C. No. 114-46]

         POTENTIAL IMPLICATIONS IN THE REGION OF THE IRAN DEAL

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 29, 2015


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-237                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Fourteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
J. RANDY FORBES, Virginia            LORETTA SANCHEZ, California
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                NIKI TSONGAS, Massachusetts
BILL SHUSTER, Pennsylvania           JOHN GARAMENDI, California
K. MICHAEL CONAWAY, Texas            HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LAMBORN, Colorado                   Georgia
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            JOAQUIN CASTRO, Texas
JOHN FLEMING, Louisiana              TAMMY DUCKWORTH, Illinois
MIKE COFFMAN, Colorado               SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
JOSEPH J. HECK, Nevada               TIMOTHY J. WALZ, Minnesota
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
MO BROOKS, Alabama                   DONALD NORCROSS, New Jersey
RICHARD B. NUGENT, Florida           RUBEN GALLEGO, Arizona
PAUL COOK, California                MARK TAKAI, Hawaii
JIM BRIDENSTINE, Oklahoma            GWEN GRAHAM, Florida
BRAD R. WENSTRUP, Ohio               BRAD ASHFORD, Nebraska
JACKIE WALORSKI, Indiana             SETH MOULTON, Massachusetts
BRADLEY BYRNE, Alabama               PETE AGUILAR, California
SAM GRAVES, Missouri
RYAN K. ZINKE, Montana
ELISE M. STEFANIK, New York
MARTHA McSALLY, Arizona
STEPHEN KNIGHT, California
THOMAS MacARTHUR, New Jersey
STEVE RUSSELL, Oklahoma

                  Robert L. Simmons II, Staff Director
                 Alex Gallo, Professional Staff Member
                 Mike Casey, Professional Staff Member
                         Michael Tehrani, Clerk
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Alterman, Jon B., Senior Vice President and Zbigniew Brzezinski 
  Chair in Global Security and Geostrategy, Center for Strategic 
  and International Studies......................................     8
Eisenstadt, Michael, Kahn Fellow and Director, Military and 
  Security Studies Program, The Washington Institute for Near 
  East Policy....................................................     6
Singh, Michael, Lane-Swig Senior Fellow and Managing Director, 
  The Washington Institute for Near East Policy..................     3

                                APPENDIX

Prepared Statements:

    Alterman, Jon B..............................................    82
    Eisenstadt, Michael..........................................    70
    Singh, Michael...............................................    59
    Smith, Hon. Adam.............................................    56
    Thornberry, Hon. William M. ``Mac''..........................    55

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Shuster..................................................    97
    Mr. Walz.....................................................    99
    
    
    
    
    
    
         POTENTIAL IMPLICATIONS IN THE REGION OF THE IRAN DEAL

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, July 29, 2015.
    The committee met, pursuant to call, at 10:02 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    The committee meets today to consider potential 
implications of the Iranian nuclear agreement for the Middle 
East and for the world. Last week most of us attended a 
classified session where the administration negotiators 
explained and argued for approval of the agreement. They have 
also been testifying in front of other committees in the 
Congress in open session.
    Today we have the opportunity to hear perspectives from a 
distinguished panel of experts. One point on which the 
supporters and opponents of the agreement concur is that this 
agreement will have wide-ranging, far-reaching consequences. Of 
course, they differ on whether those consequences will be 
positive or negative.
    It seems to me the issues of concern can be broken down 
into three areas. One are the variety of issues about 
verification and enforcement. And I would point members to an 
in-depth report by the Wall Street Journal last week that 
details how Syria has successfully thwarted and defied 
inspectors who have now concluded that Assad did not give up 
all his chemical weapons as he promised. How will Iran be 
different?
    A second basket of issues is whether, even if the 
inspections go perfectly and Iran stays in full compliance with 
the letter and spirit of the agreement, whether it is a good 
deal or not. As Secretaries Shultz and Kissinger wrote back in 
April, negotiations that began as an effort to prevent Iran 
from developing a nuclear arsenal are ending with an agreement 
that concedes that very capability, although several years down 
the road. The administration argues, of course, that a better 
agreement was not possible.
    The third basket are Iran's other activities beyond its 
nuclear program to include long-range missile development, 
support for terrorism, and instigating regional instability.
    Put it all together, we have huge stakes, long-lasting 
consequences, and a vote that this Congress must take shortly 
when we return in September. All of that combines to make it a 
weighty issue for us all.
    I yield to the ranking member for any comments he would 
like to make.
    [The prepared statement of Mr. Thornberry can be found in 
the Appendix on page 55.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I thank you for having 
this very important hearing.
    This is an issue that Congress will have to vote on; one we 
cannot avoid. So although Lord knows we have avoided a whole 
lot of others, this one is coming at us. And I think that is a 
very good thing. It gives us a chance to be deliberative, to 
listen to experts, like the ones we have before us today, and 
to have a really robust debate about what exactly the agreement 
does.
    And right off the bat, to just disagree a little bit with a 
couple of things that the chairman said, explicitly in the 
agreement is Iran agreeing to never build a nuclear weapon. 
They had to agree to that. Now, they can obviously lie, cheat, 
and steal, but it is wrong to say that the agreement says, you 
know: You, after 15 years, have permission to do whatever you 
want. I think that is one of the perceptions that is out there. 
They don't.
    Second of all, there has been some comments about how, you 
know, after 15 years, we legitimize the Iranian nuclear 
program. There is one thing that has never really been clear in 
the U.N. [United Nations] protocols on nuclear programs. It has 
been clear that you don't have a right to build a nuclear 
weapon. What hasn't been clear is the right to enrich. That 
lack of clarity really doesn't change. Now, yes, the agreement 
does allow Iran to then go back to the number of centrifuges or 
more than they have right now, but it doesn't have this big 
huge open door post-15 years that a lot of people have been 
talking about. At the 15-year point, we will have a challenge, 
no question, but look at the challenge that we have right now. 
Iran has 19,000 centrifuges. Prior to the short-term agreement, 
they had a large amount of uranium enriched at 20 percent.
    What this agreement does clearly do for at least the next 
15 years is significantly degrades Iran's ability to enrich 
uranium. It takes them down to about 5,000 centrifuges, 5,000 
and some odd. They face regular inspections, and I will point 
out that one difference between Iran and Syria is Iran is not a 
war zone. It is a little bit of a clearer picture for the IAEA 
[International Atomic Energy Agency] to go in and do the 
inspections. It forces Iran to get rid of almost all of its 
enriched uranium, down to, I believe, and I am going to get 
my--300-something. I forget the amount. Vastly less than what 
they have right now. It takes them back much further from where 
they are right now. And that more or less lasts for 15 years.
    I think the other thing to consider and comments that I 
would be interested in, if we reject this, there are a couple 
of issues. One, a number of people have suggested that we can 
go back and get a better deal. I don't think that is even 
really plausible when you look at Russia, China, the EU 
[European Union], the fact that the U.N. has already approved 
the deal, you know, that all those players would come back to 
the table, let alone Iran, I think, is a bit of an assumption. 
But the other question is, you know, so we don't come back to 
the table, we reject the deal, what happens then? Well, we know 
that Iran is able to keep everything they have got. You know, 
basically, at that point, there are no restrictions on them 
whatsoever.
    So what happens if we reject the deal? One of the things I 
am interested in hearing, and I am, you know, relatively new to 
this issue, there may be--we are all relatively new to this 
issue, since the agreement was just passed a few weeks ago. You 
know, what are the possible scenarios? What are the good 
scenarios if we reject this agreement that put us in a better 
place in terms of controlling Iran or controlling Iran's 
nuclear program.
    And I freely admit that Iran is a horrific actor in the 
Middle East and not to be trusted, but the stated goal of these 
negotiations was to try to halt their nuclear program, to try 
to make sure that Iran did not have a nuclear weapon. And 
judged on that, as I have mentioned, I think some progress was 
made.
    Now, I still have concerns about what happens after 15 
years, and I still want to hear some experts play out, you 
know, okay, here is what happens if we do the agreement, here 
is what happens if we don't because, as I said, we are all 
relatively new to this. There are scenarios we may not have 
thought of, but I do think that there have been some erroneous 
comments out there about what this agreement does and doesn't 
do, and I hope we can clear that up as well.
    With that, I yield back and look forward to the testimony.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 56.]
    The Chairman. Thank you.
    I hope our witnesses can clear up a variety of issues for 
us today. We are pleased to have Mr. Michael Singh with the 
Washington Institute [for Near East Policy]; Mr. Michael 
Eisenstadt also with the Washington Institute; and Dr. Jon 
Alterman with the Center for Strategic and International 
Studies--CSIS.
    Without objection, your full written statements will be 
made part of the record. And so each of you will now be 
recognized to summarize your comments as you like.
    Mr. Singh, we will start with you. Thanks again for being 
here.

    STATEMENT OF MICHAEL SINGH, LANE-SWIG SENIOR FELLOW AND 
   MANAGING DIRECTOR, THE WASHINGTON INSTITUTE FOR NEAR EAST 
                             POLICY

    Mr. Singh. Well, thank you, Mr. Chairman, Ranking Member 
Smith, members of the committee. The nuclear agreement with 
Iran has both strong and weak points, and it is worthy of 
careful consideration. However, my judgment is that the deal 
not only leaves Iran with a significant nuclear weapons 
capability, but arguably allows it to improve that capability 
over the life of the deal while providing Iran with broad 
sanctions relief, which I believe has been Iran's twofold 
objective throughout the talks.
    Making a nuclear weapon requires three things: weapons-
grade fuel, weaponization, and a delivery vehicle. It would 
also presumably require secrecy because U.S. officials believe 
it is not in declared facilities but in covert facilities that 
Iran would make a nuclear weapon.
    So what does the agreement do on these three key fronts? On 
fuel fabrication, the agreement permits Iran to continue R&D 
[research and development] on advanced centrifuges and begin 
deploying them in 8\1/2\ years. As these are far more efficient 
than Iran's existing centrifuges, they are well suited for a 
clandestine nuclear program. What is more, the deal's 
restrictions will phase out after 10 to 15 years, which you 
mentioned, Ranking Member Smith, which means that after that 
time Iran's breakout time that we have talked about quite a bit 
will go down to about zero, frankly, if Iran chooses to make it 
that at its declared facilities.
    On weaponization, the second plank here, the agreement 
doesn't appear to require Iran to disclose the full extent of 
its past weaponization work or provide the IAEA with access to 
the facilities' personnel and documents involved in that 
weaponization work, which would be vital to ensuring that the 
work isn't resumed in the future. And, indeed, I would say it 
is simply not clear from the text of the agreement what is 
required from Iran when it comes to what we call PMD, possible 
military dimensions, of its nuclear program.
    On delivery vehicles, the third prong of the nuclear 
weapons program, the agreement not only does not restrict 
Iran's ballistic missile activities, but it appears to remove 
previous bans on such activity. So ballistic missile launches, 
which were banned previously prior to this agreement, will now 
appear to be permitted under this agreement as of 
implementation day. And it also permits after no more than 8 
years critical foreign assistance to Iran's medium-range and 
long-range ballistic missile programs.
    So having left Iran with this nuclear weapons capability, 
the agreement's success will depend on detecting and responding 
to cheating. But the deal does not allow, as far as I can tell, 
for timely access to suspect sites. If inspectors suspect 
diversion from the declared facilities, their tools for 
following up on it are limited and weak. If Iran continues to 
refuse access under this accord, or otherwise violates the 
deal, the only remedy proscribed in the deal is the accord's 
termination. Concern over such an outcome likely means that our 
allies will hesitate to punish small violations, and IAEA 
inspectors may hesitate even to demand access in the first 
place for fear of causing the accord's collapse.
    We have witnessed this dynamic in situations which the 
members here are well aware of: the Russian violations of the 
INF [Intermediate-Range Nuclear Forces] Treaty; as you 
mentioned, Mr. Chairman, Syrian violations of its chemical 
weapons pledges. Not only have these violations, these reported 
violations, gone unpunished, from my perspective, U.S. 
officials have been loathe even to acknowledge the violations. 
The leverage in these situations tends to be with the less 
risk-averse party.
    In terms of the broader implications of the deal, the 
agreement seems likely to lead to further instability in the 
Middle East. I believe Iranian behavior is likely to worsen, 
not improve, in the deal's wake for reasons I outline in my 
written statement. And the deal seems likely to facilitate that 
increase in regional troublemaking by Iran. Iran is going to 
gain a financial windfall from this agreement, which it can use 
to help some financially squeezed proxies, like Hezbollah or 
Palestinian Islamic Jihad, and expand its influence in other 
places, like Iraq. It will face fewer impediments on arming 
those proxies because the agreement removes the ban on Iran's 
export of arms. And it will also face fewer impediments to 
building up its own atrophied military capabilities because in 
5 years, the ban on the import of arms into Iran is lifted and, 
frankly, for practical purposes may go away before that.
    This is likely going to spur a counterreaction by our 
allies in the region who perceive Iran as their chief threat, 
and I would say we are already seeing this dynamic play out in 
places like Yemen and Syria and elsewhere. And it could even in 
the future take the form of our allies seeking nuclear weapons 
capabilities of their own to match and guard against a 
potential nuclear breakout in Iran.
    In addition, I would say the deal could also lead to a 
strengthening of ties between Iran and Russia, and especially 
between Iran and China, which have been expanding their 
military ties in recent years, and both expressed a desire to 
expand them even further.
    Now, some of these regional implications I would say would 
be the inevitable consequence of any nuclear agreement which 
isn't preceded by an Iranian strategic shift, which is why it 
is important to get a strong deal whose benefit outweighs these 
costs and to more robustly counter Iranian regional behavior, 
which, frankly, is something we should have been doing long 
before this, not waiting for this deal to do that.
    But having failed to do either of these things, it is not 
surprising that our allies suspect that we are engaged either 
in a strategic reversal or a realignment of some kind in the 
region, and our reassurances to them are not likely to be 
compelling in part because they conflict with our actions and 
our policies in the region and in part because they see sort of 
the fate of previous reassurances, I would say, to Ukraine, for 
example, in 1994, which we gave in the pursuit of a different 
arms control treaty at that time.
    Folks advocating the deal quite appropriately ask what the 
alternative is, as you mentioned, Ranking Member Smith. I have 
little doubt that a stronger agreement could have been 
negotiated. Ironically, it is our downplaying of the 
alternatives which I think most contributed to the weakness of 
our negotiating position and to this deal. Continuing to play 
down the alternatives, I fear, will only weaken the deal's 
enforcement mechanisms even further. If this deal doesn't move 
forward, the other parties will either have to implement the 
deal without us or walk away from it. If they walk away from 
it, I think we and our allies will essentially be back to the 
drawing board. That's my assessment.
    Even if the deal moves forward, because its restrictions 
expire over 5 to 15 years, the next President will have to 
devise a new approach to prevent an Iranian nuclear breakout. 
He or she will be doing so without the benefit of the strong 
sanctions and international unanimity which we have enjoyed in 
the past several years.
    So I would argue that the question is not whether we need 
an alternative policy, but when we will need an alternative 
policy, and whether it is better to strengthen the constraints 
on Iran now or to try to do so later. The agreement is going to 
buy time for us, but it also buys time for Iran, which Iran 
will use to its advantage. So I see this ultimately as a 
deferral, not a resolution of the nuclear crisis, and a costly 
one.
    Thank you.
    [The prepared statement of Mr. Singh can be found in the 
Appendix on page 59.]
    The Chairman. Thank you.
    Mr. Eisenstadt.

  STATEMENT OF MICHAEL EISENSTADT, KAHN FELLOW AND DIRECTOR, 
MILITARY AND SECURITY STUDIES PROGRAM, THE WASHINGTON INSTITUTE 
                      FOR NEAR EAST POLICY

    Mr. Eisenstadt. Chairman Thornberry, Ranking Member Smith, 
distinguished committee members, thank you for inviting me to 
testify on the potential regional implications of the nuclear 
deal with Iran. It is an honor for me to be here to testify 
regarding this fateful, historic agreement.
    The nuclear deal between Iran and the P5+1 [China, France, 
Russia, the United Kingdom, and the United States, plus 
Germany] will have a major impact on Iran's role in the Middle 
East, America's role in the world, and the nuclear 
nonproliferation regime. The agreement has major shortcomings, 
and absent steps to mitigate these--and I am not sure it will 
be possible to do so--the deal will be a game-changer that 
enables Iran to meet its growing regional military commitments, 
bolster its regional alliance system, and eventually become a 
nuclear weapons state.
    Today I would like to provide an initial assessment of the 
impact of the deal with Iran on the latter's ability to project 
influence in the Middle East by looking at what the agreement 
says about conventional arms transfers, ballistic missiles, and 
its nuclear program.
    Regarding conventional arms transfers, remarkably, the 
agreement is not clear whether it actually bans Iranian arms 
transfers. At any rate, Iran has been transferring weapons to 
its regional allies for years in violations of previous U.N. 
resolutions and has vowed to continue to do so. The U.S. says 
it will interdict future transfers, but this seems unlikely 
because doing so could cause Iran to blow up the deal. The deal 
does ban the transfer of major weapons systems to Iran for 5 
years, though Iran claims that this prohibition lacks the legal 
basis, and it will fight it.
    At any rate, the ban does not apply to ammunition, small 
arms and light weapons, and light tactical vehicles, the kinds 
of arms that Iran and its regional allies need most at this 
time.
    In terms of ballistic missiles, the deal calls upon Iran to 
avoid testing and developing ballistic missiles designed to 
deliver nuclear weapons for 8 years. Iran claims that none of 
its missiles are designed for this purpose so this article is 
null and void. The deal is silent about cruise missiles, a 
major omission. Because the deal does not require the 
monitoring of labs and personnel involved in alleged past 
efforts to modify missile warheads to accommodate nuclear 
payloads, Iran will presumably be able to continue such work.
    Nuclear weapons. The agreement imposes important 
constraints on Iran's declared nuclear program and its known 
facilities. For this reason, should Iran decide to acquire 
nuclear weapons, it would likely attempt to break out using 
clandestine facilities. This may not be possible now, but Iran 
might be able to create such an option in the course of the 
coming decade. At any rate, the monitoring system created by 
the deal cannot prevent low signature activities associated 
with nuclear weapons research, such as computer simulations and 
the manufacture of non-nuclear weapons components.
    That is the baseline situation today. Future developments, 
however, may negatively impact our ability to detect and 
respond to a clandestine program in Iran. For instance: 
intelligence. While Iran is a prime target of U.S. intelligence 
today, future crises in the Ukraine, East Asia, or elsewhere 
could force the U.S. to divert intelligence assets, degrading 
its ability to follow developments in Iran.
    P5+1 unity. The success of IAEA monitoring will depend on 
the unity of the P5+1. Political differences among them could 
undermine inspections, as occurred in Iraq in the late 1990s.
    Snapback. There has been much talk about sanctions 
snapback, but it is still not clear exactly how this would work 
in practice. At any rate, snapback could provide Iran with a 
pretext to blow up the entire agreement, and for that reason, 
the U.S. is unlikely to resort to sanctions snapback except in 
extremis.
    Centrifuges. The deal allows Iran to research and build 
more advanced efficient centrifuges which could someday enable 
Iran to build a small clandestine enrichment plant that would 
be hard to detect.
    Hardening and protection. The deal will allow Iran to 
eventually acquire advanced air defenses, raising the cost of 
potential preventive action down the road. And 10 to 15 years 
hence, the U.S. military may no longer have the ability to 
destroy Iran's hardened buried facilities by conventional 
means. And the agreement commits the parties to help Iran 
counter sabotage, possibly limiting our non-kinetic options in 
Iran in the future.
    And then, finally, past weapons work or PMD. If Iran proves 
able to get sanctions lifted without answering the IAEA's 
questions about PMD, it may opt to cheat again in the belief 
that if caught, it can once again negotiate its way out of the 
crisis. So the deal may set a bad precedent for the future and 
encourage future cheating.
    So for the deal to succeed, the U.S. needs an 
implementation strategy that mitigates the agreement's flaws. 
And in my paper that I submitted, I outline the major elements 
of such a strategy, including working with our allies to 
eliminate ambiguities in the deal; to push back against Iranian 
influence in order to deter cheating in the framework of the 
nuclear agreement; taking steps to strengthen our ability to 
deter a breakout by military means; strengthening the 
military--the credibility of our military threats against Iran; 
and then also realizing that since our military capabilities 
are a wasting asset against this program, working on 
nonmilitary means of deterrent in the future.
    So I will conclude by saying that Congress should ask the 
administration to explain how it plans to deal with the 
shortcomings of the nuclear deal with Iran and the challenges 
it is likely to give rise to. The President's willingness to 
commit to the kind of mitigating measures in implementing 
strategy that I outlined in my submitted remarks will be an 
indicator of whether the deal will stand a chance of achieving 
its intended goals or will further destabilize the Middle East, 
further undermining America's standing in the region and 
eventually pave the way for an Iranian bomb.
    Thank you.
    [The prepared statement of Mr. Eisenstadt can be found in 
the Appendix on page 70.]
    The Chairman. Thank you.
    Dr. Alterman.

    STATEMENT OF JON B. ALTERMAN, SENIOR VICE PRESIDENT AND 
 ZBIGNIEW BRZEZINSKI CHAIR IN GLOBAL SECURITY AND GEOSTRATEGY, 
         CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Dr. Alterman. Mr. Chairman, Mr. Ranking Member, 
distinguished members of the committee, thank you very much for 
having me today. I am honored to be with you.
    My testimony that I submitted explores the current regional 
reaction to the agreement; likely scenarios if the agreement is 
implemented; and likely scenarios if Congress blocks its 
implementation.
    If implemented, I don't think this agreement is going to 
end tensions between the U.S. and Iran or end Iranian 
misbehavior in the Middle East. Iran will remain a focus of 
U.S. foreign policy and the United States will remain a focus 
of Iranian foreign policy.
    But fixing all of the problems of Iranian behavior is not a 
prerequisite to supporting this agreement. This agreement is 
important as much because it is among the P5+1 as it is with 
Iran. The prospect of Iranian misbehavior means that it is 
important that the world stands with the United States to 
confront what I think is likely to be Iranian misbehavior. And 
my fear is that blocking this agreement will not leave things 
as they are but make things much, much worse. If blocked, I 
foresee worse Iranian behavior on both the nuclear front and 
the asymmetrical warfare front. I see far weakened U.S. tools 
to deal with it, partly because countries will be less willing 
to work with the United States, and partly because some of 
these extraordinary international financial tools developed in 
the Bush administration to reach out and disrupt terrorist 
financing and deny their ability to access banking and all 
those kinds of tools, the kinds of tools that allowed us to 
reach out and arrest FIFA [Federation Internationale de 
Football Association] for corruption, are going to wither 
because there will be an entire global financial system which 
will be insulated from the U.S. financial system, and I don't 
think that is good for U.S. national security.
    The question before you isn't if this is the best deal. It 
is not even, is this a good deal? The question before you, I 
think, is whether it is an adequate deal to hold Iran to 
account. And my judgment is that it is adequate, partly because 
it has clearly spelled out enforcement mechanisms judged by a 
panel that tilts toward the United States--the panel is stacked 
in favor of us and our allies--and partly because this 
agreement does absolutely nothing to prevent the U.S. and its 
allies from punishing Iran for all of the malfeasance that they 
have been carrying out in the Middle East for the last several 
years.
    It seems to me that the proper focus of congressional 
attention is not perfecting the deal, but instead making clear 
to the world that Congress will insist on strict implementation 
and act against those who deviate from this agreement. Congress 
can also do a great deal to reassure American allies and to 
secure American allies in the wake of this agreement.
    There is a tendency in this debate that we are having in 
this country to build up Iran to something it is not. Iran is 
not a near peer of the United States. It is not a global 
hegemon. This is a country whose economy has shrunk for each of 
the last 5 years. The GDP [gross domestic product] of Iran is 
somewhere between my home State of Maryland and the home State 
of the ranking member, Washington. This is not a huge country. 
It is not a huge power. The inflation is almost at 20 percent. 
High unemployment. This is a country that is writhing in pain, 
and that gives us all sorts of ways to shape the economic 
drivers that guide the Iranian Government's decisionmaking. We 
should seize the opportunity now to capitalize on these 
drivers, maintaining close ties with the world's leading 
powers, to hold Iran to account. Even if we can't solve all the 
problems with Iran, this agreement gives us powerful tools to 
manage those problems from a position of strength that arises 
not only from the strength of our economy and our military, but 
also from the strength that arises from our leadership in the 
world.
    Thank you, sir.
    [The prepared statement of Dr. Alterman can be found in the 
Appendix on page 82.]
    The Chairman. Thank you.
    I want to follow up on strict implementation for just a 
second. Earlier this year, a group of us were in Ukraine where 
we talked with some of the folks who are charged with 
conducting inspections in the eastern part of that country with 
the Minsk Agreement. And one of the things we heard was that 
sometimes the inspectors just get turned around. You know, they 
say: You can't go here; it's too dangerous today. But they 
don't want to pitch too big of a fit because they don't want to 
lose the access they have.
    And so I was struck in the reporting that the Wall Street 
Journal did about Syria that the inspectors didn't want to rock 
the boat too much even when they were turned away because they 
would lose the good part that they did. And it just makes me 
wonder whether inspectors, given what they are asked to do and 
given the mentality of those they are asked to inspect, whether 
you can ever really get the verification that an agreement like 
this would demand. We hear lots about the agreement says, ``You 
can do this, you can't do that,'' but if it is not enforced, if 
it is not implemented that way, then there is not much to the 
agreement, and, again, using the Syria example, I agree with 
Mr. Smith it is a war zone. On the other hand, Syria is not as 
sophisticated as Iran in hiding things. They have very close 
relations, obviously, but it was a great triumph of the Obama 
administration that they removed all the chemical weapons from 
Syria. It turns out scientists were continuing to work on new 
weapons. It turns out they had these mobile labs disguised as 
trucks with billboards along the side. It turns out that they 
continue to use chemical weapons to kill people. And the bottom 
line was the inspectors were just not able to do the job that 
was asked of them. And so even the administration admits now 
that all the weapons were not removed.
    Now, their argument also, by the way, is we got a lot of it 
out, and so it is better than it was, which may be true. On the 
other hand, if what you don't see is all the activity of a 
nuclear program, then, obviously, it has huge implications for 
the deal.
    Mr. Singh, you mentioned it. Am I my barking up the wrong 
tree here? Are there lessons to be learned from Ukraine, INF, 
and Syria inspections, which have not worked as well as we 
hoped?
    Mr. Singh. Well, Mr. Chairman, I think you do raise a valid 
point. You know, when you look at arms control treaties during 
the Cold War, when you look at Libya's disarmament in the 
2000s, they were based on sort of mutual interests in seeing 
the accords work. The U.S. and U.S.S.R. [Union of Soviet 
Socialist Republics], obviously, there was some reciprocity 
built into those agreements. Libya and some other countries 
that disarmed their nuclear programs in the past had made a 
sort of strategic shift in advance of the agreement of the sort 
that we haven't seen from Iran. And so there was a mutual 
interest in seeing them work. It wasn't that you had one party 
that, you know, like in this case, refuses to admit that it 
even ever had a nuclear weapons program.
    Also I would say that we can overestimate what we already 
know about these programs. One thing, Mr. Chairman, which you 
didn't mention about the Syria case that is mentioned in the 
Wall Street Journal article you referenced is that the 
Intelligence Community felt they had a full picture of Syria's 
chemical weapons program, which turns out not to have been the 
case. And according to this report, they have now reassessed 
that picture, and unfortunately, it shows that Syria still 
possesses significant chemical weapons capabilities.
    So I do think that we tend to put too much weight on the 
inspectors' shoulders. You know, the inspectors in this 
agreement that has been reached with Iran will have to go 
through a lengthy back and forth if they suspect that there 
might be some undeclared activity to try to clarify that with 
Iran. And I do think there is a possibility that they will 
hesitate to make a formal request for access because they know 
that that starts that 24-day clock ticking, which could lead to 
the unraveling of the entire agreement. And so there will be 
that sort of psychological barrier of ``how sure are you 
really?'' Is it worth risking the entire agreement for this 
request for access. And, again, if they don't have U.S. 
intelligence, if they don't have the sort of weight of the 
international community behind them backing them up, I do 
question whether they will be willing to go forward with that.
    Mr. Eisenstadt. If I could just build on Mike's comment. I 
mentioned in my presentation the whole issue of P5+1 unity 
because in the mechanism for dealing with situations where 
there is a suspect site and they can't get resolution with Iran 
for access, there is a procedure whereby you have five of the 
eight members of the joint commission agree--they have to agree 
on a way forward and recommendations. And that is based on the 
assumption that the Russians and the Chinese and the Iranians 
might not agree, but the rest of the other five will maintain 
unity on this. But we saw in the course of our inspections in 
Iraq in the 1990s is that in the course of the decade, the 
French and the Russians eventually fell off and the P5 were no 
longer united, and this hindered the inspections towards the 
latter years. Although, of course, by then, Iraq had more or 
less been functionally disarmed, but in terms of tying up loose 
ends, it really hindered their efforts. So this will be an 
intensely political process and we can't assume that the unity 
that exists today might not shatter in coming years and hinder 
our ability to, you know, deal with this problem down the road.
    The Chairman. Thank you.
    Dr. Alterman, do you have a comment on this?
    Dr. Alterman. Just briefly, sir.
    When I worked in the Senate 25 years ago for Senator 
Moynihan, we had a law professor in the office, and we were 
going through the SALT [Strategic Arms Limitation Talks] II 
negotiations. I asked him a very similar question about, well, 
how do you make sure that people are actually following 
international law? And he said it is like speed limits. The 
goal is not always 100 percent compliance of 100 percent of the 
people 100 percent of the time, but you certainly shape what 
people are able to do.
    Mike mentioned Iraq. The fact is we had inspectors. Saddam 
Hussein played all sorts of stupid games. But he didn't have a 
nuclear program. We thought he had a nuclear program, but in 
fact he wasn't able to sustain a nuclear program in part 
because he never knew what the inspectors did; he never knew 
where the inspectors would go. We combined the inspections with 
all sorts of intelligence from all over the world. And it seems 
to me that while Iraq was frustrating in any number of ways, 
the arms control community, of which I am not a member, but the 
arms control community feels Iraq was generally successful 
because the goal was to keep Saddam Hussein from getting a 
nuclear bomb. And he was really far away--really far away.
    The Chairman. Interesting question, why that he made that 
decision.
    But I will yield to Mr. Smith.
    Mr. Smith. Yeah, just a couple quick points.
    First of all, on the arms transfer issue from Iran, there 
is a separate U.N. law against that. So blaming this agreement 
for not stopping Iran from being able to transfer arms outside 
is completely beside the point. It is illegal now under 
international law for Iran to transfer those arms. That is why 
we occasionally and Israel and other places are able to seize 
ships that are doing that. This agreement doesn't affect that.
    Now, certainly, Iran has found ways around that 
international agreement. I won't disagree with that in the 
least bit. But to blame this agreement for not stopping those 
arm shipments completely misses the point that there is a 
separate international law that is trying to do that, however 
difficult that may be.
    The other point is to emphasize what Dr. Alterman said 
about how inspections can clearly work, and Iraq is the best 
example. They can work even where the country in question does 
not wish to cooperate. And I can't say anything better than Dr. 
Alterman did. You know, in that instance, it clearly did prove 
effective.
    The other big question is, you know, if in fact the P5+1 is 
going to unravel over the course of this deal, one of my big 
concerns going into this is if the status quo could be held, if 
the P5+1 was going to hold those sanctions and continue to 
punish Iran in that way, and we knew that was going to happen, 
that would be one thing. But if you are saying that this is 
going to unravel even with the agreement, the concern that a 
lot of people had is that China and Russia in particular, but 
even Europe, I mean, keep in mind Europe was doing business 
with Iran early on, that if we simply say: Look, we are just 
going to keep sanctioning them forever and use that as our 
approach, the concern was that Russia and China, in particular, 
that would unravel, and eventually you would have fewer and 
fewer restrictions on transfers of money to Iran as the rest of 
the world moved away from us. And as Dr. Alterman pointed out, 
the United States likes to think that we are the only ones that 
can have a banking community, but the world is changing. And if 
we tell the rest of the world: Look, you can't do business with 
us if you do business with Iran, a good chunk of the rest of 
the world is going to set up a separate system as China, by the 
way, was already doing a couple years ago before they stopped 
and entered into these negotiations. So the concern is if we 
keep things where they are at, that too will unravel, 
particularly if we reject an agreement that the whole rest of 
the world has agreed to. And that unravelling will leave Iran, 
not 10 years from now or 15 years from now, but now with 19,000 
centrifuges, with a great deal more uranium, with a great deal 
more enrichment capability.
    So I still haven't really heard the alternative approach. 
And one question I do have is, you know, I believe, Mr. Singh, 
you said we need to do, quote, ``more,'' end quote, to check 
Iran's aggression in the region. What would that be exactly?
    Mr. Singh. Thank you, Ranking Member Smith. Some of the 
points you raised, let me just give you my clarifications. The 
arms export ban on Iran, the ban which prohibits Iran from 
exporting any arms whatsoever, was part of Resolution 1747. 
That has been lifted now.
    I think what you are referring to are bans on the receipt 
on any country shipping arms to certain groups which are 
terrorist groups and so forth. Those are separate authorities. 
And so the arms ban which was in place on Iran is lifted as far 
as I can tell under this agreement. They still couldn't ship 
arms to these proscribed groups that nobody can ship arms to 
under, say, Resolution 1701, which addresses Hezbollah. I would 
say that, from my perspective having worked very closely on 
these issues, it is a lot easier if we can stop the arms from 
getting to Iran in the first place because interdictions are 
hard. You need to have intelligence. You need to have the will 
and capability of the local partners and so forth. And those 
things often are where we fall down.
    The Iraq inspections, the main point about the Iraq 
inspections I would say here is that these are not Iraq-style 
inspections. And so whatever point you may make about how it 
worked in the 1990s, these won't be the same. And so it is not 
an apt analogy from my point of view.
    The P5+1, I don't----
    Mr. Smith. I am sorry. They won't be the same how exactly?
    Mr. Singh. These are not Iraq-style inspections. These are 
not the sort of anytime, anywhere inspections. These are 
inspections were you have continuous monitoring at a list of 
declared sites. If you have suspect activity elsewhere, the 
IAEA has to make a request to the Iranians which starts that 
clock. So you have a separate, quite a different inspection 
regime under this agreement than I think Dr. Alterman was 
referring to, although he can clarify that if he chooses.
    Was the P5+1 in danger of unravelling prior to this accord? 
I don't think so. I don't see signs of that. I didn't hear too 
many estimates saying that that was happening. In fact----
    Mr. Smith. Well, what about the fact that 2 years ago China 
was setting up this separate banking system to try to get 
around doing business with--if they had to live with the 
sanction regime, they would set up a separate banking system to 
do business with the U.S. and do business with Iran.
    Mr. Singh. So I think that Secretary Kerry was actually 
quite explicit in saying that he felt that Russia and China 
were being more helpful in the talks recently than they had 
been in the past. Our EU partners certainly weren't threatening 
to walk away----
    Mr. Smith. More helpful to get an agreement.
    Mr. Singh. Yes. Absolutely. They wanted to----
    Mr. Smith [continuing]. Not going to be an agreement----
    Mr. Singh. But I don't think there was a threat from those 
members to walk away if it wasn't this deal. I think, frankly, 
this was mainly a negotiation at the end between Iran and the 
United States with the support of the P5+1 members. The banking 
system----
    Mr. Smith. So you feel if we reject this deal, that Russia, 
China, the P5, will hold onto the sanctions just as strongly, 
will go right back in there, will not be looking for ways to 
break away from the U.S. position.
    Mr. Singh. So the situation obviously has changed now. 
Because normally these countries really couldn't do this deal 
without U.S. participation because they would need the United 
States to stay with the U.N. Security Council sanctions.
    The new U.N. Security Council resolution sort of locks that 
in. And so, from my point of view, there are no easy scenarios 
here by any means. But there is really sort of two paths that 
could be taken. If the deal is disapproved here, they could 
either try to implement it anyway. The text of the agreement 
doesn't make it clear whether that could happen or not. But 
they could choose to simply go forward with it without U.S. 
participation when it comes to the sanctions waivers.
    They could also choose to walk away. I guess I would argue, 
Congressman, that if they walk away, if the Iranians walk away 
and choose to resume their nuclear activities, our allies were 
motivated to do this by their desire not to see Iran develop a 
nuclear weapon. I don't think that desire will suddenly go away 
out of pique at the Congress. And so I think they will have 
little choice but to then get back together with us and figure 
out what do we do now. And I think that would look a lot like 
diplomacy and pressure in the way that it did before. Not that 
they will be happy with us. Remember, we have had this 
situation in the past where we have walked away or another 
party has walked away, whether from these negotiations or 
another arms control agreement, like SALT II, for example, 
where generally the trend is if there is still the same 
interests at play, ultimately you resume a process of 
diplomacy.
    The banking system I don't think is in danger from China. I 
think that our prominence in the international financial system 
depends a lot on the role of the dollar as a sort of global 
reserve currency. And, frankly, I don't see that as being under 
significant threat at this time. And so I don't think it is a 
matter of good will. I think it is a matter of the fact that 
the U.S. dollar enjoys that status. And so I don't think that 
the two things are quite as explicitly linked as that suggests.
    Mr. Smith. All right. Anybody else?
    Dr. Alterman. Mr. Ranking Member, it is true that the 
dollar has an unusual position of prominence now. I don't think 
that is guaranteed. I think the rise of the Asian 
Infrastructure Investment Bank with 50 founding members, 
including many close allies of the United States, is the sign 
of a potential for a different global financial role, and I 
think that in the event that the United States were seen to be 
going rogue to seeking its own agreements above and beyond the 
international agreements, I think that would certainly drive 
China and other countries to devise some alternative way around 
the centrality that the U.S. enjoys.
    I think one of the things that also is underappreciated in 
all of this is that the Russians and the Chinese have been 
unusually good team players since 2003 with the United States 
on the nuclear negotiations. We can talk about the possibility 
that this whole coalition would fray and fragment and everybody 
would go their own way. But it seems to me notable that we have 
actually been able to get quite good cooperation from countries 
with which we don't cooperate on a whole range of things. But 
on the Iranian nuclear deal, we have been working side by side 
with them for 12 years. I think we can count on continued 
support, and I worry that if we were to turn away, we were to 
turn away, then we wouldn't have that support, and we wouldn't 
be able to pick it up the way we have been building it for a 
dozen years.
    Mr. Smith. Thank you. I have taken up a lot of time.
    I will yield back.
    The Chairman. Mr. Forbes.
    Mr. Forbes. Mr. Chairman, first of all, I want to thank you 
for having this hearing. Thank our witnesses for being here. 
But it is amazing to me, you know, we are a Nation that put a 
man on the moon. We built the Panama Canal. We revolutionized 
the computer technology, and what a low bar we now set for 
ourselves. We no longer have as our goal to have winning 
strategies. We no longer have as our goal to have the best deal 
we can get. We no longer have as our goal even to have a good 
deal. We seem to settle for a new standard, which is just the 
deal isn't as bad as it could be. And I know we have people 
that actually believe the government when our government says, 
``if you want to keep your healthcare plan, you can keep your 
healthcare plan,'' and then when they don't, we just say, 
``Whoops, live with it.'' I know there are people that believe 
when the Syrian Government says they are going to dispose of 
their chemical weapons and then they don't do it, and we just 
say, ``Whoops, you have to live with it.'' I know there are 
people that believe when China says, ``Give us your technology, 
we are going to use it for civilian purposes, we are not going 
to use it for the military,'' when we find out they use it for 
the military, they just say, ``Whoops, you are going to live 
with it.''
    Well, I firmly believe we are going to say ``whoops'' on 
this deal. You know, probably shorter time period rather than 
longer.
    So, Mr. Singh and Mr. Eisenstadt, can you tell me what the 
world is going to look like 5 years from now with Iran in terms 
of this deal? Is it going to strengthen their economic 
situation or weaken their economic situation, and how is it 
going to strengthen it if it does? What with these assets can 
they do militarily to increase their military capabilities? And 
then the third thing, for our allies in that region, what 
concerns them most about this deal, and what kind of 
implications is it going to have on them? So if you would just 
respond to any of those three.
    Mr. Singh. Well, thank you, Congressman.
    I think that there is no doubt that Iran economically is 
better off with the deal than without the deal because of the 
lifting of sanctions or because of the unfreezing of their 
assets. It won't be a silver bullet for Iran. They still have 
economic problems related to mismanagement of the economy and 
so forth. But this will free up the space that they need to 
repair their economy, essentially.
    I think Dr. Alterman was right. The Iranian economy was in 
a very difficult state as a result in part of American and 
international sanctions. This relieves that pressure.
    In terms of how will they use this to now build up, say, 
their military capabilities and the implications for the 
region, I do think that it is very significant that, within 5 
years, the ban on imports of arms by Iran will be lifted. And 
then, remember, under this agreement there is a mechanism to 
actually allow arms transfers to Iran before that time. And so 
we are talking about Russia and China being with us. Russia and 
China are the largest providers of arms to Iran.
    One question I have is if the Russians, as they have 
already said that they intend to, want to provide arms to Iran 
before that 5 years is up, it is up to the United States, 
essentially, to veto that in the Security Council. And so one 
question will be, are we willing to sort of brook these 
confrontations with Russia and China and the U.N. Security 
Council to stop literally every arms transfer to Iran within 
these 5 years? I don't know that the answer is an absolute yes. 
I would hope that we would do that, but I think that it will 
depend upon the circumstances at the time.
    And then if you look at the question of arms exports, where 
Mr. Eisenstadt is a bigger expert than I am on the question, 
there have been reports that groups like Hezbollah, groups like 
Palestinian Islamic Jihad, have felt a financial squeeze in 
recent years in part as a result of reduced Iranian assistance. 
I think that there is every prospect that that assistance could 
now grow under this agreement. While those arms transfers are 
proscribed, because those are terrorist groups and there is 
various laws proscribed--or I should say international 
resolutions proscribing such arms transfers, Iran hasn't abided 
by those in the past. And so, again, it is a question of our 
will and our allies' will to address those types of things. And 
right now my fear is that not only have we signed up to a deal 
that our allies will find insufficient, but we are not 
projecting that kind of will to stand up to Iranian activity in 
the region.
    Mr. Eisenstadt. The only thing I will add to that is, first 
of all, with the influx of unfrozen funds, keep in mind Iran 
has a pretty robust defense arms industry, and they will 
probably increase procurement of the kind of weapons that they 
and their allies in Syria and Iraq and their proxies in Yemen 
need right now, and they will increase exports of those weapons 
to enhance their allies' ability to prosecute the conflicts 
they are in now.
    The additional money also will enable them to probably 
enhance or expand recruitment of proxies. Keep in mind, Iran's 
approach to warfare is what in the military realm is referred 
to as economy of force. They prefer to fight to the last proxy. 
Their last Arab proxy or now they have been recruiting Afghan 
Shiites and Pakistani Shiites. So more money will enable them 
to do more of that.
    And then, finally, in terms of arms imports, the first 
thing I suspect they will want to do is get the S-300 [ground-
to-air] missiles when they can from Russia in order to provide 
an umbrella over their nuclear program to create the foundation 
so that if they want to go down the path of creating a 
clandestine parallel program, it will be protected from 
preventive strike. And they will also bury it and harden it as 
well.
    Mr. Forbes. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you all for being here. As you can tell, 
obviously, everybody is very serious and intense in looking at 
these issues, and I appreciate your help.
    Dr. Alterman, one of the questions that the ranking chair 
asked initially was this issue of legitimizing Iranian nuclear 
potential. Could you respond to that? And also in terms of the 
standing, both among our P5+1 partners and in the Middle 
Eastern countries as well, what do you see is the really 
problematic role around that, and what in the implementation 
plan that you spoke about we might be doing to ameliorate some 
of that?
    Dr. Alterman. I am sorry. I am not sure I understand the 
question of standing.
    Mrs. Davis. Pardon me?
    Dr. Alterman. I am not sure I understand the question of 
standing. Do you mean Iran's standing in the region?
    Mrs. Davis. No, the U.S. standing among P5+1 and also the 
countries within the Middle East.
    Dr. Alterman. Okay.
    Mrs. Davis. But, first, on the legitimizing by virtue of 
the process that we have come to in this agreement.
    Dr. Alterman. Well, Iran is allowed by international law, 
by the treaties it has signed, by the treaties we are a party 
to, also to have a domestic nuclear program. It is not allowed 
to have a nuclear weapons program. And what this agreement does 
is it brings Iran into fuller coordination with all of the 
international safeguards and standards of having a domestic 
program which is not a weapons program. What I have heard 
directly from Secretary Moniz several times, who I think has 
probably forgotten more physics today than I will ever know in 
my life, is that we have spectacular capabilities to detect 
cheating, that nuclear products leave all sorts of remnants 
that we will be able to detect. We understand a tremendous 
amount about the way the Iranian system works because we have 
been trying to understand the system along with our allies for 
decades. And he has relative confidence as a nuclear physicist 
that a combination of having an allowed pathway with all sorts 
of international standards and safeguards and processes that 
the world has developed over decades, combined with the 
inspections, combined with our covert capabilities, that we are 
going to retain a very good understanding of where the Iranians 
are, where the Iranians are cheating.
    The question which Mr. Singh and Mr. Eisenstadt raised, 
which is an absolute valid one, is what happens when they 
cheat? And I can't imagine there is not going to be some effort 
to see is anybody really serious about this. And to my mind, 
that is really where the role of Congress comes in. The goal of 
this is to have the best agreement possible. The goal of this 
is to keep Iran from developing a nuclear weapon. The decision 
before Congress is, is this adequate to meet that goal. And it 
seems to me that it is adequate to meet the goal, and this is 
something that we have worked very closely with our allies on 
that they have trusted us to follow through, and I am really 
worried that if we in their minds abdicate the leadership that 
we have taken in this agreement, that we are going to be 
fighting the very same problems from a much, much weaker 
position than we would have. And the job of Congress, the 
decisions Congress will face, will be much more difficult 
decisions than we face now.
    Mrs. Davis. Thank you. On the standing issue, it sounds 
like, then, you would refute the notion that somehow by 
creating--you know, the question here really is, is there a 
pathway, or is there not, or is it something that is so 
problematic that it, after 5 years or 10 years and certainly 
into the 15-year period, that something that certainly Israel 
is going to be very, very fearful of.
    Dr. Alterman. It seems to me that if there comes a point 
where the Iranians decide that all their commitments don't mean 
anything, that they really do want to have a bomb, that any of 
those negative possibilities, let's say we get to that point, 
then what position do we want to be at that point? Do we want 
to be alone? Do we want to be in a head-to-head confrontation 
with the Iranians, or do we want to be standing with the world, 
with all the economies, all the people Iran trades with, and 
say, ``If you go down that road, there will be severe 
consequences for everything you care about, or you can continue 
to comply''? I think there is partly a bet in this that over 
time, as the Iranians decide they like being integrated with 
the world, they will want to continue to be integrated with the 
world. But even if that bet doesn't play out, even if it 
doesn't produce better Iranian behavior, to my mind, we want 
the world with us and not the world saying: You guys are 
maximalists, and we can't--you are both maximalists. We don't 
want to deal with either one of you. Doesn't matter.
    I don't think that is the position the United States wants 
to be in.
    Mrs. Davis. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Chairman Miller.
    Mr. Miller. Thank you very much, Mr. Chairman.
    Thank you to the witnesses. We appreciate your testimony. 
You are obviously very well educated, and I hope you will allow 
me to ask because I am a pretty simple guy--not a doctor--some 
pretty simple questions. And yes or no, I think, will answer 
most of them.
    Would unfettered access have made this a better deal?
    Mr. Singh. Well, sure. Absolutely. Unfettered access would 
make it a better deal.
    Mr. Eisenstadt. Yes.
    Dr. Alterman. If one could get that deal, that would be 
great.
    Mr. Miller. Dr. Alterman, you said that Iran is not a near 
peer, and I concur. But my question is, would this agreement 
elevate them closer to near-peer status? And what if China and 
Russia infuse conventional military capabilities? Does that 
move them closer to a near-peer status?
    Dr. Alterman. Sir, as I said, they are somewhere right now 
in GDP between Maryland and Washington State. That still leaves 
them a considerable way to go. As I said, it is remarkable over 
the last dozen years how much Iran has been an issue of 
cooperation between the U.S., Russia, and China. And I am not 
sure, as an analytical point, it is wise to make a premise that 
Russia and China will seek to use Iran as a club against the 
United States rather than continue the path that they have been 
following for a dozen years.
    Mr. Miller. Can any of you think of a way that the 
administration can guarantee that the lifted sanctions would 
not be used to finance international terrorism?
    Mr. Singh. Well, Congressman, let me also address the 
previous question.
    Mr. Miller. No. If you would, just answer my question.
    Mr. Singh. Of course, although I think that is a wrong way 
to look at it, the way that Dr. Alterman put it. Because I 
think that the question isn't, will Iran somehow match the 
United States? Of course not. Iran is not going to reach that 
level. There is no doubt.
    But can Iran use, as you suggested, the considerable amount 
of money that it is going to receive as a result of this 
agreement in increased oil exports to further finance proxies? 
It could certainly spend more than the United States is willing 
to spend in Iraq, for example, the billion plus that we have 
spent right now in the Iraq train-and-equip mission. For 
example, Iran could easily spend far more than that. And we do 
have, absolutely, sanctions and laws against that would target 
Iranian support for terrorism, and those aren't being lifted 
under this accord. But, practically speaking, the effect of the 
sanctions mean that Iran will have a lot more money to use, and 
it will be up to us to try to plug those holes. And that will 
be difficult.
    Mr. Miller. Okay. Could you answer the question I asked?
    Mr. Singh. That last part was the answer to your question, 
sir, that Iran will have far more assets to use.
    Mr. Miller. Let's go to this. Would it be easier for Iran 
to get weapons to Hamas and Hezbollah or easier for them to get 
money for them to buy weapons?
    Mr. Eisenstadt. Yeah. Well, right now, the Israelis enforce 
a blockade of Gaza. So getting in weapons, they can't. Money is 
a lot easier, and many times there are reports [of] people 
coming in with suitcases and the like. And also Iran provides 
them with, you know, blueprints for, you know, how to use--how 
to make better rockets and the like.
    Hezbollah, they have more options. They are able to get 
both arms and money to Hezbollah, and both are important for 
Hezbollah.
    So our ability to, you know, even though, despite the fact 
that there is a U.N. Resolution 1701, which proscribes Iran 
from arming Hezbollah, Hezbollah started the last war in 2006 
with, I think, 20,000, 25,000 missiles and rockets. They have 
now 80,000 to 100,000, and that is largely due to Iranian 
largesse. So our efforts have not been succeeding. And it is 
going to only get worse in the future now.
    Mr. Miller. And I apologize. My time is very short. And I 
would like any of you to answer this question. And, again, I 
apologize, it is a very simple question. Secretary Kerry is 
quoted in the press saying, ``I am absolutely convinced beyond 
any doubt this deal makes Israel safer.'' If that is a true 
statement, why is Israel opposed to the deal?
    Mr. Eisenstadt. Yeah. I would just note that it is not just 
the government, but it is also the opposition in Israel which 
is opposed. And there is wide, I think, consensus on that. And 
I guess it is a matter of where you stand depends upon where 
you sit. And they are a lot closer to the problem.
    Mr. Miller. Dr. Alterman.
    Dr. Alterman. Parts of my testimony talks somewhat about 
Israeli politics. It seems to me there is a political 
opposition that is very strong in Israel for Israeli political 
reasons, and in my judgment, the Israeli security establishment 
is much more mixed, and several senior retired heads of Mossad, 
Shin Bet, and other organizations have argued in favor of the 
agreement.
    The Chairman. Mr. Larsen.
    Mr. Larsen. Thank you. Thank you, Mr. Chairman.
    I just want to underscore Dr. Alterman's last point about 
the variety of opinion in Israel. I think within the government 
and opposition, there isn't variety. Outside of the government 
and the official opposition there is a wider variety of opinion 
on the deal, none of which we have a lot of influence over, 
which is why we are having this discussion here about what our 
opinions are.
    Dr. Alterman, the issue about Syrian and Iranian weapons 
inspections has come up. Some of us have an opportunity later 
this afternoon to meet with the former weapons inspector. Can 
you give us your assessment of an apples-to-apples comparison, 
and what the apples-to-orange comparison is? Do you have a view 
on that?
    Dr. Alterman. I have tremendous respect for all the weapons 
inspectors I have met. They tend to be spectacular scientists. 
They are meticulous in what they do. It makes all of the 
investigators I have ever met in the United States pale by 
comparison, because this really is about getting every detail 
down. I, therefore, do not feel comfortable telling you how 
much of this is apples, how much is oranges, how much is a 
combination.
    It certainly matters that you have a war zone versus not a 
war zone. It certainly matters that, I think, the intelligence 
communities have spent much more time trying to understand the 
Iranian program than trying to understand the Syrian program. 
It certainly matters that there are more trace elements 
involved in a nuclear program than there are in a chemical 
weapons program.
    But if you are interested, I can certainly put you in touch 
with some tremendous people who are arms control experts, both 
at CSIS and at other institutions, who can help prep you for 
this afternoon's meeting.
    Mr. Larsen. I value that. I don't have time before the 
meeting, but we have another several--many days and weeks 
before we have to make a decision on this so.
    Dr. Singh, is it Dr. or Mr.?
    Mr. Singh. Mr.
    Mr. Larsen. Can you be clear a little bit more about what 
you assess Iran's options are for use of additional revenue, 
beyond supporting terrorism, but including supporting 
terrorism? And then assess what the likelihood, if you can give 
me a likelihood about how they might use that?
    Mr. Singh. Well, so money is fungible. They will get 
somewhere between $50- to $150 billion. Secretary Lew, the 
Treasury Secretary, has said that a good portion of that is 
already tied up in some overseas projects. So let's say it is 
$50 billion for the sake of this answer, my expectation is that 
like just about every other country, given additional revenue, 
Iran will spend it in a variety of ways, and these aren't 
mutually exclusive. I would expect they would use some for 
domestic purposes, and some for foreign policy concerns.
    If you look at the 2013 budget that President Rouhani put 
in, there were some increases on domestic accounts, but also 
very substantial increase on military spending, security 
spending, the IRGC's [Iranian Revolutionary Guard Corps] budget 
went up considerably, and the Ministry of Intelligence and 
Security's budget went up considerably.
    There is a good reason not to repatriate all the funds 
right away, because that would have an inflationary effect 
inside Iran, if suddenly, in a $400 billion economy, you added 
$50 billion. So there is a macroeconomic reason to keep some of 
it overseas. That could either then be used for regional, sort 
of foreign policy concerns, or you could use it to purchase 
investments overseas or any other number of things.
    I don't think we can know with certainty exactly what Iran 
will do, but we have to assume it will be a variety of things. 
And a little goes a long way when it comes to the regional 
stuff.
    Mr. Larsen. Mr. Eisenstadt.
    Mr. Eisenstadt. If I can just make a comment about the 
apples-and-oranges comparison.
    Mr. Larsen. Yeah. Great.
    Mr. Eisenstadt. And I just wanted to get back to the Iraq 
inspections. I think it is important to mention why I think in 
many ways there are some aspects of the Iraqi inspections that 
are relevant, but many that are not. First, Iraq in the 1990s 
was a defeated country, and the international community had a 
lot of leverage. Iran sees itself now as a rising power.
    We were willing to use force to support weapons inspections 
in the 1990s in Iraq. We are not willing to really put out the 
threat of the military option and to articulate it in a way 
that I think is credible in Iranian eyes today. And back then, 
Iraq was sanctioned and they were not able to rebuild their 
industrial infrastructure, so you had pretty much a static 
baseline that you were trying to inspect.
    Iraq--Iran, as a result of all the funds they are going to 
be getting, will be able to have all kinds of industrial 
projects in which they can hide a clandestine program.
    Mr. Larsen. Okay. How much more clearer can we be when we 
say we keep all options on the table?
    Mr. Eisenstadt. It is a very passive formulation, I would 
just argue. And the Iranians mock it all the time. And so I----
    Mr. Larsen. Anyone's free to mock that, I am pretty sure.
    Thank you, Mr. Chairman.
    Mr. Eisenstadt. But it comes in against the background of 
the Syrian CW [chemical weapons] red line. That is all.
    The Chairman. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman, for your leadership. 
And thank you for your very thoughtful presentation earlier 
today on Fox News explaining the issues that we are facing 
right now.
    And, I appreciate the panel being here today.
    Mr. Singh, there is bipartisan opposition to the nuclear 
deal. I was grateful 2 weeks ago at a Foreign Affairs Committee 
meeting to be present with Senator Joe Lieberman of 
Connecticut, where he expressed opposition to the deal, and 
then, in fact, he indicated that there needed to be an override 
in the event of a veto.
    I expressed to him my concern, quote, that, ``The Secretary 
of State designated Iran a state sponsor of terrorism January 
23, 1984, over 30 years ago. This was in response to the 
October 1983 bombing of the U.S. Marine Barracks in Beirut, 
killing hundreds of U.S. Marines,'' end of quote.
    Subsequently, I asked Senator Lieberman, has there been any 
change of course by this regime leading up to the negotiations? 
Senator Lieberman made a chilling response, I believe. Quote, 
``This Iranian Government, the Islamic Republic of Iran, has 
the blood of a lot of Americans on its hands. The Marines in 
the barracks in Beirut, the soldiers at Khobar Towers. I could 
go on and on. Incidentally, hundreds of American soldiers were 
killed in Iraq by Shia militias that were trained in Iran by 
the IRGC. Sir, your question is a good one. Has the government 
changed? There is no evidence of it,'' end of quote.
    Mr. Singh, do you believe there has been any change prior 
to the execution of this agreement?
    Mr. Singh. I don't see that change, Congressman. I don't 
see any evidence to suggest that there has been a kind of 
strategic shift. We still see Iran actively supporting proxies 
in Syria, Iraq, Yemen, and elsewhere. We still see them funding 
terrorism. That was clarified by the State Department recently 
when it released its terrorism report.
    Mr. Wilson. And then incredibly, yesterday, Congressman 
Berman indicated that support of terrorism continues with the 
Houthis, with Hezbollah, with Hamas. And as he correctly 
stated, that is just terrorist groups that begin with the 
letter H, and so people should know this.
    Additionally, Mr. Eisenstadt, what role do you believe the 
estimated $150 billion infusion to the Iranian economy will 
play in their well-documented support of terrorist activities 
in Syria, in Gaza, in Lebanon, in Yemen, and worldwide? And 
what type of beneficial impact will $150 billion have on the 
Iranian economy, and what mechanisms instituted by the U.S. 
prevent any use of the funds for destabilization or terrorist 
activities?
    Mr. Eisenstadt. Yeah. Well, again, I think they will be 
able to provide money to their allies throughout the region, 
which they can use, in turn, to buy arms, for patronage 
networks, for--in the case for those who are involved in 
politics, such as Hezbollah, you know, to provide additional 
funds for their support base, which ensures their popularity.
    And also, you know, we have seen at least reports recently 
that as a result of sanctions over the last 2 years, they have 
had to cut back financing or aid to groups such as Hezbollah 
and Hamas, and that will be able to reverse that trend of the 
last few years.
    Mr. Wilson. And as we look at Hamas and Hezbollah, could 
you give an estimate of the number of rockets that have been 
provided to those terrorists directed at Israel?
    Mr. Eisenstadt. Yeah. Hamas, a lot of the rockets are 
homemade, although they are supplemented by both Syrian and, I 
think, Iranian rockets; although, I don't have the number of 
the breakdown between the two. And I think Hamas, at the end of 
the last war, they started the war with 10,000, and the 
Israelis believe they destroyed about two-thirds of it. But we 
know they have been showing videos that they have been 
rebuilding.
    Hezbollah, the estimate is about 80,000 to 100,000. A lot 
of those are Iranian or Syrian. Again, I don't have really a 
breakdown of that. But to a large extent, Iran has been 
providing the wherewithal for the way of war, as practiced by 
these parties.
    Mr. Wilson. And Dr. Alterman, according to Human Rights 
Watch, in 2014, Iran had the second highest number of 
executions in the world and executed the largest number of 
juvenile offenders. The country remains one of the biggest 
jailers in the world. Journalists, bloggers, and social-media 
activists, 46 behind bars now. What message does this deal send 
to human rights violators around the world?
    Dr. Alterman. Congressman, I have friends who have been 
imprisoned in Iran. I take that all very seriously. I take the 
human rights considerations very seriously. The goal of some 
people in Iran is if Iran becomes more integrated in the world, 
then the world's standards will get more integrated into Iran. 
There will be incentives for Iran to behave. There will be 
incentives for Iran not to be in an area of instability because 
companies won't want to invest in areas of instability.
    The Chairman. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    Thank you to the witnesses for being here today.
    Dr. Alterman, I particularly appreciate in your testimony 
on pages 2 and 3, you directly sort of focused on this 
committee's jurisdiction in terms of obviously arming our 
national security system and the role that this Congress can 
play if, let's just hypothetically agree that the agreement 
does go into effect as far as shaping the perception of our 
Gulf Arab states, in particular, that we are committed to their 
security and also to restraining Iran.
    And you talked about, in your testimony, that ``overall 
force structure, basing, arms sales, and training all have a 
profound effect on these countries' estimates of U.S. 
intentions and U.S. commitments, and I would argue that a very 
large number of these decisions come through this committee.''
    So looking today, where we have got the 5th Fleet in 
Bahrain, the 6th Fleet in Mediterranean, we have bases in 
Qatar, you know, we actually did intercept an Iranian arms 
shipment on its way to Yemen last April with the USS Theodore 
Roosevelt. I mean, are these sort of some of the components of 
trying to shape that perception of our commitment to pushing 
back against Iranian aggression in the region?
    Dr. Alterman. Sir, we have bases not just in Manama for the 
5th Fleet, and in Qatar for CENTCOM [U.S. Central Command]. We 
have U.S. military bases in all of the GCC [Gulf Cooperation 
Council] countries, save Saudi Arabia. We have requests from 
allies for all kinds of weapons systems. And their argument to 
us is, we are fighting alongside you in Syria. We are fighting 
alongside you in Iraq. Why is it so hard to get resupplied for 
the fight that we are in together?
    The Emirates will tell you, as they have told me, that we 
fought alongside you in 11 wars, and we would like more signs 
of friendship as we try to defend ourselves. It is not my role 
to give you a list of what the allies have requested to show 
that we are committed to them or to love them. But it seems to 
me that if you are looking at the U.S. position in the Middle 
East, our allies fear that we are looking to get out.
    I got emails from Chinese scholars this week who said we 
think you cut a soft deal on Iran because you want to get out 
of the Middle East and pivot to Asia, and that makes us worry. 
I told him, of course, that if all of our Asian allies weren't 
so concerned about China, they would be less concerned with 
getting us out there.
    But I think that there are any number of things we can do 
to send signals of what we care about, to send signals of what 
we are committed to. A tremendous number of those come through 
this committee. I think it is a very constructive area of 
engagement for this committee to discuss.
    Mr. Courtney. And Secretary Kerry, as he testified 
yesterday, I mean, he is on his way to Doha in a few days to 
really sort of, I guess, enhance that discussion or dialogue, 
which, again, I think almost regardless of what Congress does, 
that is something that we need to sort of be focused on, 
particularly, again, in this committee.
    Last question I just have is, nothing in this agreement 
takes the military alternative off the table for this Congress 
or this country today, or 15 years from today.
    Dr. Alterman. Sir, not only does it not take it off the 
table, but it also doesn't excuse any Iranian behavior. It 
doesn't give the Iranians any carte blanche to do anything in 
the region. All those things remain on the table. This is a 
narrowly derived agreement to focus on the threat of Iran 
developing a nuclear weapon, with which it would both threaten 
U.S. allies, and kick off proliferation throughout the region, 
which, in the judgment of many people, would not contribute to 
regional stability.
    Mr. Courtney. I mean, it seems like a fairly obvious point, 
but sometimes I think it is sort of lost in some of the 
discussion here. And I would just say, again, that I checked 
the DOD [Department of Defense] manifest over the last couple 
of days where we have been flying about 30 to 40 air strikes a 
day, just this week, off, again our carrier that is stationed 
over there, and now with Turkey, there is going to be more.
    So the notion that somehow this country is just sort of 
standing by in the Middle East and wringing its hands, passive, 
I think was the quote that was used earlier, I frankly just 
think people should sometimes sort of check the basic facts 
about what our military is actually doing and where it is 
stationed.
    And I would yield back.
    The Chairman. Chairman Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you to the witnesses.
    We hear the term, and we have heard it here today and we 
use it all the time, ``in the region.'' And I was in the region 
back in March, right before Easter, and had a wonderful 
opportunity to visit with leaders in Jordan and Saudi Arabia, 
for example, earlier to visit with leaders in the Emirates. And 
in this trip--remember, this is March timeframe when the deal 
was much being talked about but when it wasn't ``the deal''--
what I heard repeatedly from our Arab friends was a great deal 
of concern about what Iran was doing.
    And as we know--we don't know, but when I was there, this 
was the fourth day, when I was in Riyadh, it was the fourth day 
of the bombing strikes that the Saudis and others were 
conducting in Yemen against the Houthis. So there was a great 
deal of distrust everywhere we went about Iran and what their 
activities were and what this deal might yield.
    When we were in Riyadh and talking to the minister of 
defense, who happens to be the King's son, he said to us as we 
were leaving this meeting, ``When you see the Israelis, tell 
them they're right.'' And this is in the context of Iran. And 
you look at this deal, which allows an infusion of some 
unspecified amount of money between $50- and $150 billion, I 
think Mr. Singh, you said, and I think I heard Secretary Lew 
use some number like $56 billion or something like that, that 
is a lot of money in the region.
    I guess, I am looking for some sort of sense, for those of 
you in Near East policy, I guess, Mr. Singh and Mr. Eisenstadt, 
what are our friends--what are the Arabs, what are the 
Egyptians, the Saudis, the Emirates, the Jordanians--what are 
they now saying, thinking about this deal? Are they safer? Are 
they less safe? Is Israel safer? Less safe? Please.
    Mr. Singh. Well, Congressman, I think that the concerns 
that our allies in the region have are not just about this 
deal, but they are about our overall policy in the region 
predating the deal. I think they worry that we are no longer 
strategically on the same page.
    And that is why when we talk about what do we do from here, 
it is fine to talk about assistance in tangible ways to allies; 
it's fine to talk about a robust American military presence in 
the region; it's fine to talk about sort of intel resources and 
making sure that, you know, we are keeping a close eye on the 
Iranians. But none of those are really, I think, get at the 
core concern of allies, which is that strategically we are not 
in the same place, because they see us countering ISIS [Islamic 
State of Iraq and Syria], and, of course, they welcome that, 
but they don't see us countering Iranian proxies, whether in 
Iraq or in Syria, for example.
    You see, for example, this recent story about a safe zone 
in northern Syria where it looked like we might be willing to 
sort of more actively take on the Assad regime, and then it 
seems like we are backing off of that. Although, maybe that is 
just sort of a garbling of a news story. And so I think they 
feel that we are just not strategically on the same page.
    And so they will accept this assistance, absolutely. They 
will accept the increase in exercises. But they worry about 
fundamentally, are we going in different directions, as Dr. 
Alterman said. Are we looking to simply disengage or realign 
ourselves? And I think that is what we need to convince them 
that, in fact that is not happening.
    And that is why I have written that one of the problems 
with this agreement is that it is not nested in any sort of 
coherent strategy for the region and, in fact, it seems at odds 
with our stated strategy of the region that gives rise to 
suspicions.
    Mr. Eisenstadt. If I could just add to that and build on 
it. I agree. It comes against the background of the perception 
among many of our friends in the region that we invaded Iraq, 
and either through, by design or incompetence, we handed it 
over to, you know, the Shiites in Iran and perception that we 
threw President Mubarak under the bus, although, frankly, I am 
not sure what other option we had at that point, you know, but 
to switch horses.
    So some of the problems are, you know, longstanding, you 
know, the rebalancing to Asia and then this with, you know, 
creating the perception that we have a tacit kind of 
arrangement with the Islamic Republic to empower them in order 
to create some kind of balance in the region. So it just kind 
of feeds these kind of fears and perceptions.
    But let me just also say, look, one of the things that our 
allies are most concerned about, because they are dealing with 
proxy wars and the like around them, and from the point of view 
of both Israel and our Gulf allies, they see themselves being 
encircled by Iran and their proxies, is that this agreement, 
again, as we have talked, frees up a lot of funds which will 
enable these activities.
    Plus, as I mentioned before, 5 years from now, as the arms 
embargo on transfers to Iran is lifted, they will be able to 
get S-300 missiles, if not sooner, that will foreclose, or at 
least constrain some of our military options, so that even 
though maybe the military option is technically on the table, 
it will be much harder as a result of things that we have 
agreed to.
    And the final point I just wanted to make is that no 
agreement is self-implementing. You have to have a conducive 
policy context in order for it to succeed. And that is why, you 
know, Mr. Singh and myself have argued that we need to push 
back against Iranian activities in the region in order to show 
them that they will be less inclined to cheat in the nuclear 
part. If there was a more permissive regional environment, they 
will be more inclined to cheat.
    Mr. Kline. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman. And thank you for 
pulling together this set of people to testify.
    And I appreciate your testimony, because I think we all 
recognize that we are at a real crossroads, that it is a 
historic moment reflective of a deep commitment this country 
has made to finding a way forward to constrain Iran from 
developing a nuclear weapon. And so it is very important, I 
think. And I think you see here that we are all taking 
advantage of your testimony to really ask some of the hard 
questions that I think we all have to be comfortable with as we 
make our decisions going forward.
    And so, number one, I think much of the discussion has sort 
of strayed away from the goal of the agreement. And the goal of 
this agreement as set out by Secretary Kerry, President Obama, 
Secretary Moniz, who is so much a part of it, was to prevent 
Iran from developing a nuclear weapon, at least for the next 10 
to 15 years. And I think much of our discussion has sort of 
strayed from that to focus more on the impact of sanctions 
relief, the kind of funding opportunities that it will present.
    And in that context, Mr. Singh, I appreciate that you sort 
of validated the $50 billion figure that Secretary Lew has put 
out there as a reasonable number that might be made available 
to Iran. Not a small one, but we have heard much larger 
numbers. So as we have this discussion, I think it is good that 
it is rooted in what really is possible.
    But I wanted to get to you, Mr. Alterman, because you have 
said that it is an adequate deal. That in the context of 
preventing Iran from developing a nuclear weapon for the next 
10 to 15 years, that it is adequate to holding Iran 
accountable. But you have also said in your written statement, 
the success or failure of the agreement hinges on 
implementation, and I think we all know that. Many of our 
questions do resolve around that.
    So can you tell me, in your mind, what the key factors are 
to a successful implementation, what that would look like? We 
have heard some concerns about the human dimension, that in the 
end, it is up to people, part of the IAEA sort of making 
decisions as to how to move forward, where they suspect that 
there is some shenanigans going on. So we can never get away 
from that altogether. That is the nature of this agreement in 
general, any agreement in general.
    But what do you see successful implementation hinging upon, 
going forward?
    Dr. Alterman. Congresswoman, it seems to me there are two 
aspects. One is that you can keep the countries that are 
enforcing this agreement, intent on enforcing the agreement; 
that if somebody sees something that is distressing, that the 
countries will act together to investigate something 
distressing and be determined to hold the Iranians to account 
for that.
    That, of course, comes in a whole complex set of 
relationships that we all have with each other and other kinds 
of interests. But, again, I think the last dozen years we have 
worked reasonably closely on this. The Russians and the Chinese 
haven't gone their own way. And so I am cautiously optimistic, 
although certainly not certain that we can keep this inspection 
side moving.
    The other piece, of course, is what the Iranians decide to 
do. In my studies of Iran, it seems to me that we often assume 
that they don't really have politics; that we assume that they 
don't have factions; that we assume there is one guy with a 
beard in a room making all decisions. And the more I understand 
about Iran, the more I understand they have brutal politics: 
People fighting for resources, people fighting for power, 
people fighting for influence.
    I think one of the uncertainties in all of this is, are 
there ways that this deal would lead to more constructive 
Iranian politics that would lead to more constructive Iranian 
behavior? And that is certainly the hope of this deal. I am not 
sure it is necessary. But I think one of the promises of the 
deal is that you can create enough incentives for people who 
want Iran to be much more of a normal state, much less of a 
revolutionary cause, to have more influence in Iran.
    Ms. Tsongas. What do you see Congress' role being in 
encouraging the successful implementation of this?
    Mr. Singh. And I think also making clear that if Iran is to 
improve its behavior, that American companies would feel much 
freer to go into Iran. And if Iran is playing games, then 
Congress would be very serious about not allowing American 
companies to go in there.
    In my conversations with people in oil companies, one of 
the interesting things is just how conscious they are of 
exactly where the legal line is for what they can talk about 
what they would want to do in Iran. And they keep that line 
very bright and very far away from anything they want to say or 
do. And I think that is helpful. And the Iranians should know 
that we are paying attention to what they do, and we will act 
accordingly.
    Ms. Tsongas. Thank you. My time is up.
    Mr. Franks [presiding]. I thank the gentlelady.
    Thank all of you for being here today.
    I think it is probably important at times to just back up 
and consider just the sweep of military history and the fact 
that we are over 70 years into the nuclear age now, and we find 
ourselves in a moment when one of our primary foundations for 
security in this country is our nuclear deterrent. It is based 
on a principle that if someone should attack us, that the 
response would be unacceptable to them. In other words, the 
fact that our military capability is on the table if someone 
attacks us.
    And in this situation, I feel like that is probably the 
fundamental mistake that was made in this agreement; that Iran 
never really feared a military--being on the table, a military 
response. And I am convinced that that was because they had to 
watch this President as ISIS beheaded its way across Iraq, and 
they knew they had nothing to fear from him.
    With that in context, I would suggest that whatever the 
cost is of preventing Iran from gaining nuclear weapons, it 
will pale in insignificance, or pale in comparison to the cost 
of dealing with Iran once it has a nuclear weapons capability.
    Mr. Alterman, you suggested that Iran was ``writhing in 
pain,'' to use your words, and that this situation was not 
going to really change that a great deal. But I would suggest 
that North Korea, when we dealt with them, they were even more 
economically disadvantaged. And yet, we made a deal with them 
that, it occurs to me, was much more robust than this one, much 
more favorable, and the result was that Korea gained nuclear 
weapons a few years later.
    Mr. Singh, I want to point my question directly to you, 
sir. You laid out three prime components to the nuclear weapons 
capability: One was the fissile material, the ability to enrich 
and have fissile material; the second was to weaponize; and the 
third was to have a delivery system. Given that two and three 
in circumstances could be accomplished in fairly rudimentary 
ways, the real fundamental mechanism here is the gaining of 
fissile material, the ability to have indigenous enrichment or 
plutonium production.
    And under this agreement, where the Iranians now have 
19,000 centrifuges, mostly IR-1s, they would back off to 5- to 
6,000 centrifuges. Yet, they have, under a protected protocol, 
the ability to enhance to IR-8s. Would you tell this committee 
how much more capable an IR-8 is compared to an IR-1, how much 
that then would compare to their existing capability? And also, 
would you tell us if one part of Iran's nuclear infrastructure 
has been or will be destroyed under this agreement?
    Mr. Singh. Well, thank you, Congressman.
    The IR-8 centrifuge you referred to, the Iranians have 
claimed it is 16 times more powerful than their existing IR-1 
centrifuges. The IR-1 centrifuge is an antiquated design. It 
would take far more of them operating for longer, compared to 
the IR-8, to make one bomb's worth of uranium.
    How efficient it will actually be in practice, we don't 
know, because we haven't seen it in practice yet. But one 
concern that you might have about this agreement is that it 
actually creates a safe space for the Iranians to continue the 
testing of the IR-6 and the IR-8, and then after 8\1/2\ years, 
begin deploying those centrifuges in cascades, and after 10 
years, totally swapping out the IR-1s.
    As I said, this is tremendously concerning, because if you 
wanted to have a clandestine nuclear facility that was small, 
you would want to use these more advanced centrifuges to do 
that. I am also concerned about them getting international 
assistance with the centrifuges. There are various stop-gaps 
against that, but that is going to be something we are going to 
have to pay a lot of attention to in this agreement.
    Is anything dismantled in this agreement? I would say they 
are left in possession of their entire nuclear infrastructure. 
Their heavy water reactor is going to be modified with a new 
core. Their centrifuges will be deactivated in parts. But those 
are limits which expire after a period of 10 to 15 years. So 
you are talking about temporary freezes on certain parts of it, 
but not really dismantling.
    Mr. Franks. Well, I guess, my time is almost up. So I would 
just suggest that the great concern that some of us have is not 
only the danger to Israel, but the utter unenforceability of 
this agreement. And I hope that somehow the American Congress 
will respond in a way that would give us the best chance going 
forward to seeing our children walk in the light of freedom.
    And with that, I am going to recognize Mr. Veasey for his 
questions.
    Mr. Veasey. Thank you, Mr. Chairman.
    I wanted to ask Dr. Alterman and Mr. Singh specifically 
about stretching out the inspections. There has been some 
concerns raised that perhaps these inspections could be 
stretched out. Like for instance, let's say that there is a--
and Mr. Eisenstadt, I would definitely like your opinion as 
well, if you would like to weigh in--if there is a site that 
inspectors feel need to be examined, of course, you know, going 
with the 24-day rule that is put in place.
    Will the Iranians be able to, you know, offer any sort of 
explanations, or any sort of delay mechanisms to stop that 24 
days from being, you know, fully enforced? And the reason I was 
wanting to know that was because, as someone that is thinking 
about, you know, how I am going to ultimately vote on this, I 
want to know, is this 24-day number something that is firm?
    Dr. Alterman. Congressman, my understanding from the 
briefings I have gotten from Secretary Moniz and others is that 
it is adequate because the radioactivity and the traces that 
these materials leave behind cannot be eliminated within 24 
days, or even a little bit longer. I think they have repaved 
the Parchin site six times in order to try to cover up evidence 
of what they have done before. They have done that over years.
    What I have heard from the nuclear experts I have spoken to 
is that this window is sufficiently small that if something 
prohibited has been going on, there will be sufficient residue 
that our capabilities will pick up.
    Mr. Veasey. But--I mean, but absent any sort of, you know, 
them trying to clean up a particular site that may have 
contained radioactive materials, do you feel that the 24-day 
rule that is in place, that it means 24 days and that it can't 
be stretched out? The Iranians can't say, Oh, well, wait. Hold 
on a second. We want you to send us something in writing. We 
want to have an opportunity to go and look at this a little bit 
longer.
    Dr. Alterman. Every arms control expert I have spoken to, 
and there have been more than a dozen, have all told me that 
they feel that that provision is sufficiently specific and 
rigorous enough to give people clarity.
    Mr. Singh. Well, I have a different view, and I have--
actually, Olli Heinonen, who was in charge of verification for 
the IAEA has said the same thing. So there are arms control 
experts who have said this isn't sufficient. Part of the reason 
is that the 24-day period is proceeded by a back and forth 
between Iran and the IAEA. The IAEA needs to ask Iran to 
clarify any suspect activity. That is an indefinite process. We 
don't know exactly how long that lasts.
    If the IAEA is not satisfied, then the formal access 
request is made. That starts a 24-day clock. If after 24 days 
that joint commission says, Iran, you have got to give access, 
Iran could still say no and we would have to take them to a 
dispute resolution mechanism. That dispute resolution mechanism 
could last anywhere from 30 to 35 days, and could be extended 
by consensus of the joint commission, which would have to 
include the United States, bear in mind.
    If Iran still says no at the end of that, then it goes to 
the Security Council. And the question is, do you want to 
collapse the entire agreement over this issue? And I think 
everyone, including the United States, is going to have to look 
real hard at that request of access and say, is it worth it?
    Now, when it comes to radioactive elements, here, look, the 
question is, is the work in question work that was being done 
with nuclear material? There is nuclear weapons design work 
that could be done without nuclear weapons material, in which 
case, this issue is not relevant to this question. And even if 
you detect traces of material, if they have had that time to 
demolish the site, the question is, what specifically can you 
actually tell about what was going on at that site beyond the 
fact that there was nuclear material there?
    And so I don't think we should take that as sort of a 
silver bullet. It certainly hasn't been in the past, when it 
comes to inspections.
    Mr. Eisenstadt. If I could just add to that, to build on 
Mr. Singh's comments, I do agree with Jon in that we have very, 
very sensitive technologies to deal--to detect nuclear 
materials. It is something like a billionth of a billionth of a 
part can be detected, and very often years and sometimes 
decades later, and it is very hard to sanitize those sites. But 
that is only one subset of the type of nuclear activities that 
we would want to prevent.
    Now, if somebody is doing nuclear computer modeling stuff, 
you know, they could get rid of the evidence in as long as it 
takes to pull out the hard drive and take it home and put it in 
a different hard drive. And it would be very hard to stop that. 
If we are dealing with the manufacturer of non-nuclear 
components for a weapon, well, that would take a bit longer. 
That might take maybe a couple of days to clean up or so.
    It all depends on exactly what kind of activity you are 
talking about. So it would have been preferable to have a much 
smaller time window to be able to detect more than just stuff 
related to, you know, radioactive materials.
    Mr. Veasey. Interesting. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    I would like to thank our witnesses for joining us today.
    Mr. Singh, Mr. Eisenstadt, I would like to propose to you 
three questions to get you to give us your perspective. We have 
been told that this choice is between the deal before us versus 
going to war. I want to get your perspective. Is that truly the 
only choices that we have in this? And we are also told that 
this is the best deal we can get. Is this truly the case? Is 
this the best deal that we can get?
    Dr. Alterman also said, in his testimony, that it was an 
adequate deal, and that Congress could subsequently go back and 
fix things that might be a problem from the adequate deal. Can 
you give us your perspective on how Congress has performed in 
fixing things that it has put in place that are less than 
adequate?
    Mr. Singh. Well, look, on the first question, is this 
really a choice between the deal and war, the deal on the table 
and war, I think that is a false choice, frankly. The United 
States, ultimately, obviously, we decide when we go to war. I 
don't see any preparations for doing that. I didn't detect that 
in President Obama's policy. If it was really a choice between 
this deal and war, the Iranians may still reject this deal, 
which means we should all be preparing ourselves for some 
pretty nasty options.
    I think that that underestimates that deterrent power of 
the United States. Yes, the Iranians could rush forward for a 
weapon if we walk away from this, or they could in any 
circumstance. In the past, they haven't done that. They have 
been deliberate. They have been slow, in part, I think, because 
of the deterrent power of the United States. We have said if 
they do that, there will be this military option.
    In fact, I would say that the downplaying of our deterrent 
option and the alternatives and the consequences for Iran 
helped us get into what was a relatively weak negotiating 
position.
    Is this the best deal we can get? As I said in my written 
testimony, I think that we could have gotten a stronger 
agreement. I think you could argue, well, that is water under 
the bridge now. We have the deal that we have. And so could we 
get a stronger agreement in the future? I think that there is 
no easy scenario for that. I think now it is quite difficult 
having gone to the U.N. Security Council to endorse this 
particular deal.
    But, you know, frankly, I would say the question is really, 
do it now or do it later, because once these restrictions start 
expiring, we are going to need to have some sort of new policy 
anyway. Unless the Iranian strategy changes, which, as I said, 
we haven't seen any evidence for, we are going to be worrying 
about this in 5 to 10 to 15 years and confronting this problem, 
yet again, without those constraints.
    Mr. Eisenstadt. The only thing I would add to that is, 
first of all, I don't know if we could have gotten a better 
deal but, you know, because that is kind of counterfactual. But 
I could point to--and, in fact, I wrote a whole monograph about 
how the U.S. could better marshal all the instruments of 
national power to increase leverage over Iran in the 
negotiations. And there were a lot of--I think there is a 
number of instruments that we didn't use as effectively as we 
could have.
    So it stands to measure--you know, stands to reason that 
had we more effectively used the leverage we had--in 
particular, you know, one of those had to do with a credible 
military threat, which I don't think really was on the table--I 
think we may have come out with a better deal. Again, it is 
counterfactual.
    In terms of can Congress fix it, I mean, actually, you 
know, I think it is probably too late to do intrusive kind of 
surgery, because, as Mr. Singh has said, you know, there is 
already a U.N. Security Council resolution, and I don't think 
politics will allow that. But I think the role that Congress 
can play is forcing the administration to create, as I 
mentioned, for that conducive political context, whereby, 
again, if Iran believes that the regional environment it is 
operating in is permissive, it will also believe that it will 
have more latitude to perhaps push back in terms of its 
observance of the agreement and perhaps cheat.
    And if the regional environment is less conducive, and we 
are pushing back at Iranian activities throughout the region, 
that will be a signal to them that--and hopefully will deter 
them from challenging the agreement, because there is a lot of 
ambiguity. If you look at this text, I never read--I read U.N. 
Security Council resolutions all the time; I read these kind of 
documents all the time. It is the most convoluted, opaque 
document I have ever read in my life.
    And there will be differences in interpretation. And that 
is why it is very important that the United States and its 
partners in this agreement clarify, this is our understanding 
of what Iran has committed to so that they cannot engage in 
wedge strategies to play us off against each other down the 
road when people have moved on from the jobs and nobody 
remembers exactly what it was agreed to. We have got to nail 
this down now.
    And that is where Congress can, I think, be constructive. 
That is one area.
    Mr. Wittman. Mr. Singh, within that context, give me your 
historical perspective about how successful Congress has been 
in coming back to these issues where there has been these 
problems with the accuracy of what has been passed here, and 
the Congress' record of coming back and truly fixing those 
things. Just give me your perspective on that, or maybe an 
example about where you have seen that either successful or not 
successful.
    Mr. Singh. Well, I am not an expert when it comes to the 
history of arms control agreements. I will say, though, that 
obviously, revising them after the fact can be difficult. Look 
at the conventional forces in Europe treaty where we have tried 
to fix it in the face of Russian aggression in Georgia and 
Ukraine, that hasn't been terribly successful. And I think it 
is quite tough to change these things after the fact, once we 
are in them.
    The Chairman. Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    Dr. Alterman, I would like to continue the conversation 
about the credibility of a military threat from the U.S. One, I 
would like to know how you think Iran would respond if we were 
more explicit about sign this deal with a more ideal standard 
than the one we currently have, or else we will invade.
    And then I would like you to address this concern that our 
military threat is not credible enough. It is hard for me to 
understand, considering that we invaded the country to Iran's 
immediate west and changed that regime. We invaded the country 
to Iran's immediate east and changed that regime at the cost of 
hundreds of billions of dollars, thousands of U.S. service 
member lives, and hundreds of thousands of lives lost in those 
two countries. So I would like you to begin by addressing that 
credibility of a military threat.
    And then I would just add that this President has made it 
clear that no option, including a military one, is off the 
table. There is not a single Member of Congress who would say 
that the military option is off the table, and not a single 
Presidential candidate in the current primaries who would say 
that. So tell me how this message is being lost on Iran, if 
that is, in fact, the case.
    Dr. Alterman. My reading from talking to Iranians is they 
don't doubt Americans' capabilities do anything anywhere around 
the world. The question they are confronting is the American 
will to do things. The question they are confronting is after 
an open-ended war in Iraq, which accomplished a fraction of 
American goals, after the longest war in American history in 
Afghanistan, is the U.S. really prepared to invade Iran, to 
occupy the country, and impose a different regime?
    Members of this committee may have different views on that. 
I assume that your constituents all have different views on 
that. But if that is what people think we should be telling the 
Iranians, that if you don't make this deal, we are going to 
occupy your country, throw out your government, impose somebody 
we would like better, I think the Iranians would judge whether 
the United States really wants to do that or not.
    The other side to the spectrum is the U.S. can strike 
anything anywhere at any time with impunity, and we have been 
doing it in Syria and Iraq for the last year. And the question 
is, if you do that, how much difference does that make? And 
then in between those things, how to use military instruments 
to get political objectives?
    And I think any country struggles with the challenge of how 
to use military tools for political outcomes, and we have done 
it sometimes successfully; we have done it sometimes 
unsuccessfully. But the Iranians, I think, look at all these 
questions with a fair degree of sophistication. I think they 
evaluate the threats. They evaluate what they think our 
intentions are. And they do it with a remarkable degree of 
sophistication that we don't apply to their system.
    There are a lot of Iranians who live in the United States. 
There are a lot of Iranians who report back. I spoke at a small 
synagogue in Rockville, Maryland, on a Sunday, and then 2 
months later, I saw somebody from the Iranian U.N. Mission who 
said, ``Oh, I thought your presentation in August was really 
interesting.'' Because somebody had reported on it.
    So this idea that we are going to be able to bluff the 
Iranians, I think, is a mistake. The idea that we are going to 
occupy Iran is not something I see a lot of American support 
for. And I agree very much with many of the things that my 
friends Michael and Michael have said, this doesn't obviate our 
need for a genuine strategy. It doesn't remove our need for a 
regional strategy.
    Whatever we do here, we are going to have to have a 5-year 
plan, a 10-year plan, where Iran will play an important role. 
But I also agree with Mike Eisenstadt that the time to fix this 
is probably passed, and the question we have to deal with is 
going forward with an Iran, which I think we are going to 
continue to have trouble with, what is the best position to do 
that from, with the world or against the world?
    Mr. O'Rourke. I think that is a really compelling point. 
And I think if the collapse of a deal makes war not certain, 
but, perhaps, more likely, I would want to be with the world 
community if we are to reimpose even harsher sanctions, or if 
we have to go to war. I think it is preferable if we have to 
make that choice that we go in with allies and with a higher 
standing in the global community. And the alternative is one 
that we have lived through before and I think is unthinkable 
going forward.
    So appreciate your comments.
    Mr. Eisenstadt. May I clarify a point with permission?
    The Chairman. Just briefly.
    Mr. Eisenstadt. Thank you, sir.
    Just want to make a point. Nobody wants invasion, and we 
are not talking about that. But in 2003, the U.S. presence on 
the ground in Iraq and Afghanistan did apparently cause Iran to 
suspend their weapons work, and it did help bring them to the 
negotiations with Europeans at the time, I would argue. But 
since then, our credibility, I think, has slipped.
    And I would argue, we don't want to threaten them in their 
face. This should not be an ultimatum. It should be subtle, 
because that works better in this part of the world, and 
indirect threats and telegraphed threats are much more 
effective, I think. So nobody's talking about getting in their 
face and threatening invasion.
    The Chairman. Dr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman.
    Gentlemen, I, for one, do not believe that a bad deal is 
ever better than no deal, and I am very disappointed about what 
we have. I see this as a terrible agreement, and we should not 
support it, and it is a high water mark. It can only go down 
from here. I would say that it is equivalent to the 1938 Munich 
Agreement. I think it will lead to not peace, but to more war.
    We are already hearing that neighbors in the region of the 
Middle East are planning to build their own nuclear facilities, 
develop nuclear weapons in a very bad neighborhood. And 
certainly, our closest friends and allies, Israel, I think, are 
virtually unanimous in their belief that this is a bad deal, 
and I think we should listen to what they have to say.
    But there are some interesting points here. This deal 
provides Iran with a signing bonus of $50 billion to $150 
billion of assets in overseas accounts and provides economic 
growth associated with sanctions relief. And I am particularly 
concerned about how the regime might use these funds to build 
up conventional capabilities of its own military, as well as 
those of its allies and terrorist proxies in the region, such 
as Hezbollah.
    General Dunford, the President's nominee to be the next 
Chairman of Joint Chiefs really recently testified, and I 
quote, ``I think it is reasonable to assume that if sanctions 
are lifted, the Iranians would have more money available for 
malign activities,'' end quote.
    So my question to Mr. Singh and Mr. Eisenstadt, could you 
describe how Iran might prioritize its money to support such 
malign military activities in the region?
    Mr. Singh. Well, Congressman, as I mentioned before, my 
anticipation is that Iran will use whatever financial windfall 
it gets for a variety of purposes. And they have shown in the 
past that even under sanctions, even when they were under 
duress, they increased the amount they were willing to spend on 
security accounts, for the IRGC, the Revolutionary Guards, the 
Ministry of Intelligence and Security, and overall military 
spending. So, I don't see why that would change under these new 
circumstances, except they will have a lot more money to spend, 
frankly.
    We care about this stuff because the things that Iran does, 
supporting proxies, like Hezbollah, Hamas, Palestinian Islamic 
Jihad, undermining the sovereignty of governments in the region 
directly threaten our interests and objectives in the region. 
Iran also--I think, General Dempsey recently pointed out--is 
engaged in cyber activities, which we perceive as a threat. 
They have invested in sea-based mines and other means of sort 
of compromising freedom of navigation in regional waterways 
that are a threat.
    I don't think we should assume that this strategy will 
change; in fact, I think there is every reason to believe this 
strategy will continue. And all we can say for certain is that 
they will have more resources at their disposal, and fewer 
sanctions impediments for pursuing that strategy.
    And I should just point out as a corollary that, to me, the 
nuclear weapons program was not a standalone thing, not a lark. 
I think it was part of this strategy. And so that determination 
also remains there. And my big concern about the agreement is 
not that we shouldn't have a negotiated agreement--I think we 
should--I just don't believe that this one is sufficient to 
reliably prevent them from continuing to pursue that.
    Dr. Fleming. Mr. Eisenstadt.
    Mr. Eisenstadt. The only thing I would add is that they 
would probably prioritize proxies over their conventional 
military capabilities except for the SAMs, which I think are 
important for them to provide an umbrella over their nuclear 
programs going forward. And then among the proxies, it is 
Syria, Hezbollah, then Iraq, then probably the Houthis.
    Dr. Fleming. And doesn't this agreement also allow over the 
course of the first 8 years or so, or maybe the first 10 years, 
for Iran to import more ballistic technology, which could not 
only enhance the threat regionally, but also even to the U.S.?
    Mr. Eisenstadt. This is something which I have not been 
able to get my arms around looking at this agreement. I mean, 
in the annex where they discuss ballistic missiles, there is a 
paragraph which discusses a continued ban on the importation of 
technologies that could be used for the production of delivery 
systems for nuclear weapons. So that remains in place. You 
still have other sanctions related to missiles and the Missile 
Technology Control Regime [MTCR].
    But we know, because they have published pictures of their 
missile production facilities, they are still able to get stuff 
which they should not have been able to get under the MTCR, and 
very large pieces of equipment and special materials and the 
like. So, it is a leaky system before this agreement. I don't 
think the agreement will change anything in that regard.
    And, in fact, after 8 years with the missiles, in some 
ways, it might become a little bit easier for them and they 
will have more money, which you need to facilitate smuggling 
and violation of export controls and the like. Money helps a 
lot in that area.
    Dr. Fleming. Thank you. I yield back.
    The Chairman. Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    I would like to continue this line of questioning. I think 
we can all agree that Iran is unlikely to change its regional 
behavior in the wake of this agreement, and I think that we 
have sort of talked about that--they will have more funds--in 
addition to expending the funds in other places, they will have 
more funds to expend for their proxies in the region.
    But I want to know what post-deal confrontation looks like. 
What should the U.S. response be? Are we more involved in 
getting more engaged in Syria? Are we going to end up having to 
spend more time holding the Gulf States back from their 
attempts to now develop nuclear weapons themselves?
    What is the U.S. involvement in the region? Are we going to 
be more involved in places like Lebanon, Yemen, and will we 
need to do that in order to reassure our Gulf State allies? Mr. 
Singh.
    Mr. Singh. I do think that as a result of the agreement, 
but also as a result of just the chaotic regional situation and 
Iran's involvement in these conflicts, we will need to be more 
involved, not less involved, in the Middle East going forward. 
And I think that will take any number of forms. Jon talked 
about some of them. I mentioned some of them.
    It will take the form of assistance and exercises and 
things like that with allies. It will take the form of 
intelligence focus on Iran and on its proxies and so forth to 
keep a close eye. It will mean a robust, forward presence in 
the region, which we have now, maintaining that or even 
enhancing it so that we can respond quickly, if, for example, 
there is an Iranian breakout attempt or some conflict flares up 
far worse than we see now.
    But I do think it will also mean trying to do more to 
counter Iranian regional ambitions. And exactly what that looks 
like, it could be any number of things. It could be more 
involvement in the situation in Syria, getting finally a little 
bit more serious about trying to bring that conflict to an end, 
putting more pressure on the Assad regime. It could look like 
responding more forcefully to Iranian provocation through the 
Strait of Hormuz.
    Remember, one thing that we saw just a few months ago was a 
more aggressive posture by Iranian fast ships in the Strait of 
Hormuz, taking some cargo ships captive. We didn't really 
respond to that. And so I think one thing we will need to think 
about is responding more forcefully in such situations.
    Ms. Duckworth. So if the deal fails, what does U.S. 
involvement look like? And specifically, I want to know what 
the Gulf States will--how will they react? And then are we then 
dealing with the Gulf States attempting to amp up their nuclear 
ambitions and feeling the need that with no restraints on Iran, 
they need to develop nuclear weapon capability themselves? What 
is that alternative?
    Mr. Singh. So I don't think that if this deal doesn't go 
forward, for any number of reasons, I don't think it is right 
to say there are no restraints on Iran. In the sense that, 
remember, Iran still was careful in the past because of the 
U.S. military threat not to rush forward, not to cross certain 
lines. Iran still has to worry about American deterrence. We 
shouldn't sort of factor that out of the equation. It is not as 
though the deal--the deal doesn't limit them at all, in fact, 
in these areas. It is our deterrence, our posture in the region 
that deters them.
    I think all the deal does, is number one, in this front, 
send conflicting signals to allies and cause them to worry more 
about what is our strategy in the region; and number two, it 
lifts some key sanctions on Iran and provides Iran with more 
financial assets to pursue that strategy. So I don't think the 
regional situation looks dramatically different except for the 
U.S. standing and the Iranian capability in that circumstance.
    Ms. Duckworth. I don't know who wants to answer this one. 
What is the Gulf States' reaction to no deal?
    Dr. Alterman. I don't think they can contemplate it, to be 
honest. They are used to having governments that make executive 
agreements. The idea of powerful legislators who tell the 
princes you are not going to do this is not something they 
think a lot about. What they are thinking mostly about is what 
does this mean for American intentions, American commitment, 
American assurances. They will try to read that.
    I think they will see a less-constrained Iran as more 
menacing, and they will want to feel us even more, and they 
will want to feel other countries even more, because they will 
want an array of support. I think they also will get 
increasingly concerned that the White House doesn't speak for 
the U.S. Government, and they will want to deemphasize the 
United States to the extent they can in their strategies 
because of a lack of confidence that when U.S. Government 
officials tell them something, it will represent U.S. 
Government policy.
    Ms. Duckworth. And would that carry out over to whichever 
party controls the White House?
    Dr. Alterman. I think it would. You know, one of the 
concerns in the Gulf States that I have heard, I have sort of 
picked up reading between the lines, is their concern sometimes 
that Americans don't always understand there are evil people in 
the world, and we should really have enemies. And I think the 
Gulf States, on the one hand, understand they really have 
enemies, but they also talk to their enemies.
    For all the UAE [United Arab Emirates] is staunchly opposed 
to the Iranian nuclear program, there is billions of dollars in 
trade between the UAE and Iran. And I think that they want us 
to figure out what we were really trying to do.
    Ms. Duckworth. Thank you.
    I yield back, Mr. Chairman.
    The Chairman. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    And thank you all for being here today and for sharing your 
expertise with us.
    Can you reflect on why the President of the United States 
took this agreement before the United Nations for a vote prior 
to allowing Congress to vote on the agreement? Anybody like to 
comment on that?
    Mr. Eisenstadt. Well, I suspect you know the answer. I 
suspect he wanted to be unencumbered and, you know, I mean, if 
possible, to present Congress with a fait accompli. I mean, I 
think that is kind of the logic of executive prerogative.
    Mr. Coffman. It seems to me that the President has a view 
about foreign policy and national security based off sort of a 
peace-through-diplomacy approach. But I had met in 2009, went 
to Israel and met separately with Prime Minister Netanyahu, 
President Peres, and the chief of staff of the IDF [Israeli 
Defense Force]. And I asked them the same question. And I said: 
Well, how would you best propose to stop Iran? What is your 
recommendation for stopping Iran to obtain a nuclear weapon? 
And they all actually had the same answer in separate meetings, 
and they said that you should impose economic sanctions that 
are harsh enough to where the government of Iran worries about 
a collapsing economy and losing power, political power, as a 
result of that.
    I wonder if you all would comment on that.
    Mr. Singh. Well, I think that that is right, and that was 
the U.S. approach for a long time. It was to combine diplomacy 
with these coercive elements to try to produce a sort of cost-
benefit analysis by Iran that it had no choice but to sort of 
give up its nuclear weapons ambitions and maybe to embark on a 
broader strategic shift.
    I think that when we get ourselves into trouble is when we 
sort of just choose one tactic over the others and sort of 
reject all the other tools in our tool kit. And I think what 
happened here was that we lost the coercive element to it. You 
know, in negotiations, you have got the deal, and then you have 
got, what are the consequences for not accepting the deal? It 
is sort of what we talk about here. What are the alternatives?
    But I think when we posed the alternatives to Iran, they 
simply weren't very threatening because the language that we 
were using was simply that we needed a deal, that we didn't 
have good alternatives to the deal, and this gets to the 
question of the credibility of the military threat. And so I 
think that what was coercive diplomacy lost the coercive 
element. And if we had kept that in play, if we had used that 
more smartly, I think we could have gotten a stronger 
agreement.
    Dr. Alterman. Congressman, I think the Iranians--certainly 
Hassan Rouhani--thinks that if this doesn't go through, he will 
be out of power. I think his strategic view has been for about 
15 years that the level of animus between Iran and the world 
harms Iranian national security. He argued when he was the 
Secretary General of the Supreme Council on National Security 
back in about 2000, 2001, that we should knock down the walls 
of mistrust between Iran and the West with bulldozers. That is 
not because he doesn't think that the West has malign intent 
toward Iran--and a lot of Iranians give you a whole litany of 
Western offenses against Iran--but because he thinks that level 
of antagonism, a level of violence between our societies 
undermines Iranian national security, and I think that he has 
made the decision not that the West is really a warm and 
friendly place that is going to respect Iranian interests, but 
that level of hatred and animus is harmful, and this deal 
provides a way to lower the temperature. I would argue that 
would also serve American security interests and stability----
    Mr. Coffman. And let us not pretend that this is a 
democracy. There is a vetting process for anybody to run that 
is through the Supreme Leader. And so I think that one of the 
problems with American foreign policy is we want to believe 
that everybody is really, at the end of the day, just like us, 
and if given the opportunity, they will be like us and--let me 
finish here--I think that is a fundamental flaw in this 
agreement, in this agreement because I think that was the basis 
of the President's view when he came into the White House, it 
was that he didn't believe in sanctions, he didn't believe in 
economic sanctions. He believed that if we treat Iran just like 
any other country, they will behave like any other country, and 
that is a very high-risk strategy with a very low probability 
of success.
    Mr. Chairman, I yield back.
    The Chairman. Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    Gentlemen, I do appreciate you being here and having frank 
discussion with us today.
    Mr. Alterman, you mention that this deal is adequate. And, 
frankly, I think it is far less than adequate. And the notion 
of no deal, to me, is actually more adequate than the deal that 
is on the table. What we are doing today does more to keep us 
safe than what this deal does.
    And you mentioned Iranians writhing in pain, and I would 
like to point out, as a surgeon in Iraq, what writhing in pain 
looks like. And when you see an American soldier that has been 
hit by an IED [improvised explosive device] provided by Iran, 
that is writhing in pain. And if they are writhing in pain, it 
is because of the actions of their government and their people. 
And I can't find anything since 1979 that would give us any 
indication that we should trust in this government, in these 
people.
    You mention Rouhani. He is not the leader. Khamenei is. And 
he has publicly stated before and after this agreement that 
they will continue to be an adversary of the United States and 
attack the United States. This agreement allows them to be more 
capable of that. It enhances their opportunity for weapons to 
kill Americans.
    And the other thing that has been said is it is this deal 
or war. I would like to ask you a question. What is war? Is war 
going to battle? Is that what war means to you? I am just 
trying to get your opinion of what that statement might mean.
    Dr. Alterman. First, I don't agree with the idea that it is 
this agreement or----
    Dr. Wenstrup. I am asking a different question.
    Dr. Alterman. No, but I don't agree that--I don't agree 
with the formulation that it is this deal or war. I think it is 
this deal with the world behind us, or it is this deal with us 
sailing against the world. And I think that makes a whole----
    Dr. Wenstrup. Okay. Let me point something out. You 
mentioned how cooperative Russia and China have been. They are 
not being threatened by this government. We are. Russia and 
China is not hearing ``Death to Russia,'' ``Death to China.'' 
It is a lot easier for them to be cooperative and to give in on 
this stuff. But I asked you the question: So this deal or war, 
what does war mean to you?
    Dr. Alterman. So you talked about the writhing in pain. And 
I know veterans, and I am sure you do, and I live right behind 
Naval Medical Center, and I have seen unspeakable injuries. So 
I don't diminish that at all.
    I have also met Iranian veterans of the war with Iraq who 
they believe have been crippled for life by chemical weapons 
that the U.S. turned a blind eye to.
    Dr. Wenstrup. My question right now--thank you very much 
for your comments on my comment.
    My question right now is, what do you conceive to be war? 
We have heard the statement, ``It is this deal or war.'' What 
do you perceive that as? Going to battle? What does that mean 
to you?
    Dr. Alterman. War can be any number of covert actions, 
overt actions, limited war, unlimited war, efforts to depose 
the government, efforts to punish the government. We could see 
any number of things with any number of people on our side and 
any number of people on their side.
    I think what we are sometimes missing about Iran, not that 
Iran is a democracy, but Iran has genuine politics. I think 
Iran has genuine politics. It is hard to be serious about the 
history of Iran since 1979 from Ayatollah Khomeini, who had 
dominant control because of his spiritual position, to 
Ayatollah Khamenei, who has much less of the gravitas that his 
leader did. He sort of got a cheap promotion up to being 
Ayatollah to make things work. It is a country of politics.
    And I think what the administration has tried to do is to 
see if there is something to unlock in the politics that will 
make Iran less of a threat. But I think the whole spectrum of 
war is available to us. The whole spectrum of war is available 
to the Iranians. I think we will win. I don't think the 
Iranians can beat us, but what does that look like in the 
alternatives to----
    Dr. Wenstrup. Well, the point I am trying to make is we 
have given up so much that down the road liberates the Iranians 
to do what they say they want to do, which is to kill 
Americans. Okay? And so when it comes to war, there are other 
components. And I think that when we hear that statement coming 
from a high level in our government, people in America perceive 
that as going to battle. These gentlemen talked about it. I 
believe they understand all the components of war, which is 
diplomacy; military sometimes is a deterrent, often is a 
deterrent like the Cold War; sanctions, which we are giving up; 
and sharing of intelligence and building a relationship with 
our allies that also look at this enemy as an adversary. And 
I'd like maybe you to comment on some of the other components 
of war that we could be using and are not, if you would.
    Mr. Singh. Well, look, I think the question of deterrence 
is a very important question. And I think that the idea that we 
had no choice but to make this deal does discount the role that 
deterrence plays in shaping the decisions of other countries, 
of adversaries. And I think that going forward, maintaining 
that deterrence is going to be awfully important to any 
successful U.S. policy in the region.
    Dr. Wenstrup. Thank you.
    And, unfortunately, my time is expired. I yield back.
    The Chairman. Mrs. Walorski.
    Mrs. Walorski. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here.
    And I guess, Mr. Alterman, I think just--and we have sat 
here for two hours, and I appreciate you indulging us. But I 
think to your point that you have just been talking about for 
the last couple of minutes here about Iran being a country of 
politics and alluding to the fact that one of the issues is, 
from the world's point of view and from an Iranian point of 
view, they are used to dealing with other nations that have 
princes, that don't have a legislative body.
    And I think that is one of the reasons why there is such a 
disconnect in this country because we are talking about--you 
know, we are not talking about little treaties and little 
things about tanks and small arms. The American people in the 
United States of America do understand this is an existential 
threat we're talking about. It is an existential threat. Now, 
we're talking about nuclear weapons. We're talking about an 
existential threat to Israel, and we're talking about an 
existential threat to our homeland. That is what we are talking 
about, or we would not be involved in this, quote-unquote, 
``agreement.''
    And, you know, that is where I think a lot of the issue 
comes down to. We do have a separation of powers. Before we 
enter into something like this, which existentially is a threat 
to all of us, the American people do have a right to know 
through their representatives sitting here today and having a 
look at that document and being allowed to vote.
    My question is on the perception of what is going to happen 
after this vote, and whether we have enough votes to override a 
Presidential veto. I happen to think it is going to be very 
close, or what the President has been up to he wouldn't have 
been up to, and he is really calling everybody, and he needs 
every single vote.
    What are we going to look like to the rest of the world as 
a split nation? There is no mandate. There is no giant 
majority. There is a couple of votes over the top that gets 
this bill through, which is where I think we are going to be.
    What perception, then, does the world take on that, a 
President that doesn't even have a majority of agreement in his 
own nation?
    Dr. Alterman. What I have read in foreign newspapers in the 
last week is something of surprise that there is the debate 
going on in the United States that is not going on in other 
places. We have people invoking the Holocaust. We have all 
sorts of things that in the rest of the world, is just 
considered to be strange.
    Mrs. Walorski. Because the rest of the world is not a 
superpower. The rest of the world doesn't dictate peace and 
freedom and fight for those things, and fight for the freedom 
of people. The rest of the world are apples to us being an 
orange. So, in the peer level that we had with Russia and 
China, and to my Representative colleague's point, they are not 
victims or targets of this aggression. We are the victim and 
the target of the aggression. We are the ones that have watched 
Iran operate in Iraq, killing Americans, involving themselves 
in Yemen, involving themself as the largest state sponsor of 
terrorism with Hezbollah and Hamas. We are the ones that have 
watched that. We are ones that sent American blood and money to 
free these countries from the oppression of these terrorist 
regimes. Largest state sponsor of terror. No changing the mind 
of the Ayatollah. And here we sit. That is why the American 
people are so divided. And I think we are going to see a 
divided answer to this question on the agreement. It may lose 
by a couple. It might win by a couple. But at the end of the 
day, the perception, then, doesn't change.
    Dr. Alterman. The perception that we are----
    Mrs. Walorski. The perception of the world. The perception 
of Iran doesn't change. There is no major majority.
    Mr. Singh. If I could just weigh in here, I think you--
there is an important point here I think which is it is an open 
secret that I think a lot of folks on both sides of the aisle 
are concerned about whether this agreement is sufficient. So 
what I anticipate will happen going forward as we look ahead is 
that whoever comes into office next as President, regardless of 
party, may find that this is insufficient, may find themselves 
wanting to strengthen the nuclear constraints on Iran. And that 
is going to be very tough to do. It is going to be very tough 
to get allied support for that, frankly, because, you know, 
when we talk are the P5+1 with us, you know, I was working on 
this in the mid-2000s, and I remember how hard it was to get 
even European support when they had the business deals they had 
with Iran. And I think getting support to strengthen the 
nuclear constraints in the future, which I think any President 
is inevitably going to want to do, is going to be quite hard. 
And then if you look at the agreement itself, it is clear that 
there are ambiguities over other relevant issues, like does the 
agreement give us the authority, give us the ability, to impose 
sanctions on Iran for terrorism and human rights that sort of 
mirror the effects of the sanctions we are now relieving? We 
think that it does. And I think Secretary Kerry has testified 
to that point. It is not clear to me, though, that our allies 
agree with that. And so that sets up a very difficult situation 
for us because, you know, who knows if we will have that 
support.
    Mrs. Walorski. Can I ask you one quick question before I 
run out of time? Other than Iran, I think in this agreement, 
personally I think the United States is a loser, and I think 
Israel is a loser. Who are the other winners in this agreement 
besides Iran? Who gains the most?
    Mr. Singh. Well, I think those who gain the most are anyone 
who wants to do business with Iran, anyone who sees Iran as a 
strategic partner, frankly.
    Mrs. Walorski. I yield back.
    Thanks, Mr. Chair.
    The Chairman. Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman.
    And I want to follow up on Dr. Fleming's questions. This 
deal does not shut down or even limit the production of Iran's 
ballistic missile program. Iran will continue to maintain a 
ballistic missile capability that is the largest inventory in 
the Middle East as well as develop an ICBM [intercontinental 
ballistic missile] capable of reaching the U.S. So, as you 
know, this type of capability is a very real threat to our 
national security. And we need all possible tools available to 
deter and protect ourselves and our allies from the devastation 
potentially from Iranian ballistic weapons. So given that this 
deal rolls back the missile embargo on Iran, how will increased 
ballistic missile cooperation by Russia and China impact Iran's 
ICBM program?
    And I will start with you, Mr. Singh.
    Mr. Singh. Well, Congresswoman, I think this is a big gap 
in the agreement. And if you will remember with the [1994] 
Agreed Framework, what happened after the Agreed Framework was 
suddenly the conversation turned to missiles and the North 
Korean missile launches, which happened in the second part of 
the 1990s. And my concern is that that is what will happen here 
because, as you said, the ban on launches, especially, goes 
away with this agreement. It turns from a binding ban to 
nonbinding hortatory language in the new resolution. I think we 
need to be concerned with Iran's medium-range ballistic 
missiles, which could put our bases and our forces within 
range, which are inherently, according to what I have seen 
reported, nuclear capable. And I think we need to worry about 
those ICBMs. And if you look at past testimony, open testimony, 
by U.S. intelligence officials, the sort of timelines for ICBMs 
always specify ``with critical foreign assistance.'' That 
critical foreign assistance becomes a lot easier as sanctions 
are lifted in 8 years, or if sanctions are lifted before 8 
years under certain stipulations here. And so, again, my worry 
is that this is inherently part of a nuclear weapons program. 
You need a delivery vehicle. My worry is that the deal will 
actually allow them to perfect this relatively underdeveloped 
component of their nuclear weapons program.
    Ms. Stefanik. And one more follow-up, Mr. Singh, before we 
go to the other witnesses.
    Can you give me your full personal assessment on the threat 
to U.S. soil today from the Iran ICBM at its current stage in 
development?
    Mr. Singh. I don't know that I have the details to do that. 
I don't think that we have seen anything to indicate the 
Iranians have reached that capability yet. They have engaged in 
space launch activities and so forth. That is out in the open, 
but I couldn't tell you sort of a timeline as to when will they 
get there and so forth. I think it depends on a lot of 
variables. But in a classified setting, I am sure that is a 
question that should be posed to U.S. officials.
    Ms. Stefanik. Thank you.
    Mr. Eisenstadt.
    Mr. Eisenstadt. I will just add a few points.
    First of all, as I mentioned before, they already seem to 
be able to get, despite the restrictions that have been on them 
in the form of U.N. resolutions and Missile Technology Control 
Regime constraints, they still have been able to get technology 
and move forward slowly but surely with their program. So the 
addition--their access to frozen funds will, I think, enable 
them to ramp up the smuggling activities. Again, money 
facilitates kind of, you know, shell companies and the 
activities of middle men who are engaged in this kind of 
smuggling. So I assume they will be able to ramp that up.
    Secondly, I will mention that there is no mention of cruise 
missiles in this--in the deal. And they recently unveiled in 
the last year a cruise missile they call the Soumar, which is 
based on the old Soviet Kh-55 air-launch cruise missile. They 
modified it to make it a land attack cruise missile. If it has 
the range of the original Soviet system, that is 2,500 to 3,000 
kilometers. That is a very--that is a long-range cruise 
missile. We don't know how successful they were with the 
reverse engineering. But I am very concerned that this is--this 
was in the Soviet inventory their primary air force--their air 
force's primary nuclear delivery system. And now the Iranians 
are producing their own version of it. And there is 
absolutely--the agreement says nothing about that. So that is 
something I am very concerned about.
    In terms of their ability to reach the U.S., they are not 
here yet. I mean, they have been working on--they have missiles 
that have 2,000-kilometer range which means they could range 
southeastern Europe from their part of the world. If they were 
to put them on a ship, on a--and people have speculated about 
this possibility, put it on a civilian transport ship and put 
it off the coast of the U.S., they could reach us conceivably, 
or if they were to get a land base in this hemisphere.
    And then, finally, this will just simply complicate our 
missile defense challenge. We have been selling a lot of 
missile defenses to our allies in this part of the world, and 
as they move forward with their capabilities in this area, we 
are going to have to do more. But there is a lot more we need 
to do with our allies in terms of interoperability and sharing 
of information that they are not doing right now to ensure that 
the whole is greater than the sum of the parts.
    Ms. Stefanik. Thank you.
    Dr. Alterman.
    Dr. Alterman. In the last 7 seconds, I will tell you I grew 
up in Poughkeepsie, and your district is one of my favorite 
places in the whole world.
    Ms. Stefanik. I am happy to hear that.
    Thank you. I yield back.
    The Chairman. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman. Thank you, gentlemen, 
for your testimony today.
    Mr. Singh, you mentioned that it seemed like, you know, 
this is fait accompli, like, you know, Congress can't change 
this, and there has been a lot of discussion on that really in 
the media, but, you know, the reality is this isn't a treaty 
like the CFE [Conventional Armed Forces in Europe] treaty. Now, 
maybe perhaps it should have been, but it is not. And if you 
look back in history, there has been, according to Mark 
Dubowitz, who talked to us yesterday, over 200 occasions where 
there has been a treaty or an agreement that came to Congress 
and Congress provided amendments to that treaty or 
international agreement and said: Look, we are going to vote on 
this thing, but you need to go back to the table, and you need 
to make this a better deal. And over 200 times this has 
happened.
    So all of sudden there is this dynamic going on like we 
have forgotten that this is the way the three branches of the 
government work, and we have got to either take this deal; it 
is up or down; it is, you know, Chicken Little; it is we go 
with this deal only because, you know, this administration has 
negotiated this deal or bad deal are we even in this situation; 
and somehow Congress really can't do anything about it. So why 
can't we go back and say, we will potentially agree to this 
deal if it has the following, you know, five, six, or seven 
amendments? Go back to the table. That is what leaders do. That 
is what leaders of the free world do, bring our allies back 
together and say, Congress will approve this under the 
following restraints. Why can't we do that? Why is this 
narrative continuing to, you know, perpetuate that Congress is, 
you know, we are just spectators in this whole thing as opposed 
to demanding we have a better deal like we have done in the 
past?
    Mr. Singh. Well, Congresswoman, look, I think in terms of 
the premise, I agree with you. If you look at the history of 
arms control agreements, there have been agreements that 
Congress didn't accept. For example, I mentioned before the 
SALT II agreement was withdrawn from consideration. We had 
other arms control agreements with the Soviets that never went 
forward because of opposition or because the situation on the 
ground changed, and we didn't think that it was any longer the 
appropriate agreement for what we were trying to accomplish. 
And certainly if this were considered a treaty and the 
administration couldn't muster the two-thirds support that it 
needed, then the logical option would be to go back and try to 
renegotiate the points that need to be renegotiated. You could 
argue that that also means that those who oppose it need to be 
specific in their opposition, say: Here is what isn't strong 
enough, and here is what we need to see improved. And I do 
think that is important here. And, you know, if you look at 
what we have written, and I know this is true of many of you as 
well, there are specific points which are not deemed 
sufficient.
    I think the trouble here is the mechanism is obviously 
quite different. And you have acknowledged that. This has 
already been blessed by the U.N. Security Council. The adoption 
date is 90 days from when it was voted on, which is just 30 
days, then, past when Congress will get to review it. And the 
question is what will happen. If Congress disapproves, could 
the parties go ahead and implement anyway, and then that sort 
of puts us in this position of opposing the agreement that we 
are ourselves negotiated. Or would the other party simply walk 
away and say, ``This doesn't work without U.S. participation,'' 
in which case, as I have argued, because our allies still will 
oppose Iran developing a nuclear weapon, I think that they may 
not like the situation, but I think we are still then back to 
the drawing board and trying to renegotiate a stronger deal.
    Look, under any other circumstance, if a deal doesn't have 
the sufficient domestic support, you go back and renegotiate 
it.
    Ms. McSally. Exactly. Thank you. I only have a little bit 
of time left, but another consideration--I was in the military. 
I deployed six times to the region. I, you know, put my life on 
the line as with many of my colleagues in order to defend our 
interests in this region. We have many dead American soldiers 
because of Iran and what they did in Iraq, what they have done 
in Lebanon as a state sponsor of terror.
    This is very personal for those of us who served in 
uniform. We are deeply concerned that with the influx of cash 
that they are going to have, they are going to continue to grow 
their conventional capability, increase their air defenses, 
increase their ability to shoot down our pilots, close the 
Straits of Hormuz, do all the things--I mean, I have been 
briefed--I am well aware of the military option as it exists 
rights now. It becomes much more dangerous in the future, 10 
years from now, for those of us who are like: Well, at least we 
buy time. So we buy time with a state sponsor of terror with an 
influx of cash to build their conventional and nonconventional 
capability that is going to kill more Americans if we actually 
have to do a military option later and the increase of risk to 
American lives. Could you just comment on that?
    Mr. Singh. Well, I do think that that is right. And my 
worry is that when you do a deal like this with a party which 
hasn't had any kind of strategic shift, if we know that Iran is 
still determined to carry out that strategy, then my worry is 
that we will be finding ourselves encountering those things in 
the future and that the military option does get more difficult 
as you go forward, as Iran arms itself, as you have 
international folks inside those nuclear facilities, and as 
they have been granted sort of international legitimization.
    Ms. McSally. Thank you. And I would say ``difficult'' is a 
clinical word. More Americans are going to die. That is what it 
comes down to.
    Mr. Eisenstadt. I will just add as I see we are out of 
time, that given--I see the possibility that 10 years down 
road, 15 years down the road now, next time they will be--if 
they build another clandestine facility like they did at Fordow 
and Natanz those are relatively shallow. Next time it will be 
much deeper; they have world-class expertise in superhardened 
concrete and in tunneling, and I am not sure we a military 
option with our current conventional capabilities 10 or 15 
years down the road.
    Ms. McSally. Great. Thank you.
    My time is expired. I yield back.
    The Chairman. You all have been very patient through a 
variety of questions. I am going to impose on you just a moment 
longer because--and you kind of talked around these things, but 
I just want to get each of your brief thoughts.
    One of the things that concerns lots of people around the 
world is the growing conflict between Sunni and Shia. We see it 
in Iraq. We see it in Yemen. And the concern that that spreads 
to a, you know, even more violent, even more widespread sort of 
conflict, does this agreement have any effect on the likelihood 
of a Sunni versus Shia open war?
    Mr. Singh. Well, Congressman, you know, you have heard some 
folks say that in the wake of this agreement, maybe Iran would 
be a partner against ISIS. I think that is misguided because I 
think the more Iran is active in the region, the more it is 
engaged in these conflicts in places like Syria and Iraq and so 
forth--and in Syria, there is a very strong indication that 
Iran is really at the forefront of the battle that the regime 
is waging. I think that exacerbates sectarian conflict. I think 
that that feeds movements like ISIS rather than sort of 
diminishing them.
    And so I think looking at Iran as a partner, when in fact 
Iran has been filling the same vacuum that some of these other 
groups are trying to fill, is mistaken. And I worry that that 
will get worse, not better, in the wake of the deal.
    Mr. Eisenstadt. I will just add, I mean, I agree with that, 
and, you know, the idea that we partner with Iran as part of 
this campaign just will feed the impression that our idea of 
the best way to counter Sunni jihad is by partnering with Shia 
jihadists. And, again, that simply is a lethal combination that 
exacerbates the conflict in the region.
    But even if we don't, you know, overtly partner with Iran, 
there is the perception that we are tacitly partnered with 
them. And even if we successfully, you know, parry those 
perceptions, you know, the fact is that the additional money 
that is available under this agreement will enable Iran to, you 
know, ramp up support for its allies and partners in the region 
that are key actors in the sectarian conflicts. So, I think we 
should expect further intensification. And also just the 
perception that Iran is coming out of this as, you know, if 
this from their point of view feeds into their narrative of a 
rising Iran that is, you know, triumphant in the region, and 
that will simply only further exacerbate the fears of the 
Sunnis in this part of the world and feed recruiting for ISIL 
[Islamic State of Iraq and the Levant] and Al Qaeda affiliates.
    Dr. Alterman. Mr. Chairman, I think we have gotten a little 
fixated on how fixed sectarian identity is and how important it 
is. It is not very long ago that there was lots of 
intermarriage between Sunnis and Shia throughout the region. 
There were mass conversions to Shia Islam in Iraq in the late 
19th century. We are not really sure why. These categories have 
gotten more fixed, and it is partly because people have seen 
this as a proxy for a state battle, and they have used 
religious terms, religious categories, in order to fight 
between Saudi Arabia and its allies, on one hand, and Iran on 
the other.
    I think the goal of this agreement, in part, is that it 
creates incentives for Iran to try to be like a more normal 
country, a country which wants to have investors come in. It 
needs tens of billions, hundreds of billions of dollars 
invested in its oil industry, its gas industry. They want 
trade. I mean, there are a lot of signs that there are parties 
in Iran who want Iran to be a much more normal place. Try going 
somewhere on an Iranian passport as a tourist. There aren't a 
lot of places to go. And you don't have money to spend. And so 
there, I think, there is the possibility of incentives that 
Iran will cease to be the kind of country Congresswoman McSally 
described, in many cases very accurately, that the long history 
of antagonism between us and Iran will diminish. They talk 
about how we helped overthrow Mossadegh in 1953, and we were 
involved supporting Saddam Hussein in the 1980s and so on. And 
they can be more normal. And a more normal Iran is not going to 
be an Iran that is feeding the flames of this sectarian 
violence. A more normal Iran is going to act like a more normal 
state. I am not sure that will happen. I hope it happens. And 
if it happens or if it doesn't, I think we want the world with 
us.
    The Chairman. Yeah.
    Mr. Singh. If I could--Mr. Chairman, if I could just 
comment on that because I think that if you look at the deal, I 
don't think it does provide that incentive. The sanctions are 
rolled back maybe to where they were in, say, 2006 or 2007. I 
was working on Iran policy at the time, and I can tell you 
before these sanctions were imposed, Iran was not being 
helpful. Before the sanctions were imposed in the mid-1990s, on 
preventing U.S. oil companies from going in, Iran was not 
acting as a sort of more helpful, more normal state.
    And so I think, yes, we would all like to see Iran shift 
its strategy. We would all like to see Iran change its behavior 
in the region, but I think that actually we are not confronting 
Iran with that strategic choice. My worry is that we have 
allowed them to escape that strategic choice by sort of having 
their cake and eating it too; keeping their current strategy, 
their current nuclear weapons capability, and getting the 
sanctions relief on top of that.
    The Chairman. Okay. Well, I guess some people describe this 
as the big bet, whether more contact with Iran, the investment 
and so forth, will lead to a different sort of regime or not.
    One more, right quick, and you all talked about this kind 
of, but nuclear proliferation, does this make it more or less 
likely? You know, you can argue it from both sides, which is 
why I ask the question.
    Dr. Alterman, I will start with you this time.
    Dr. Alterman. I think creating a structure of rigorous 
inspections creates anticipation that the world will take any 
nudge toward nuclear weapons capability from any state very 
seriously. Deciding that this is just too hard, that we are not 
going to ask intrusive questions, I think, will send a signal 
for people that the Iranians are likely to go their way, and if 
the Iranians go their way, if they are going to have a bomb, I 
want a bomb.
    The Chairman. So, on balance, you think that signal to the 
world outweighs the pressure that will be on the Gulf States 
and other Sunni Arabs to have some sort of capability?
    Dr. Alterman. So if we go forward with this agreement will 
the Gulf States feel they need----
    The Chairman. Yeah, yeah.
    Dr. Alterman. No. I think if we go forward with the 
agreement, the Gulf States will be whispering in our ear every 
day saying: Make sure you are serious. Make sure you enforce 
it.
    The Chairman. Yeah, okay.
    Mr. Eisenstadt. If I could just--actually in a way the kind 
of the cat's out of the bag because we have already started 
seeing, since around 2005 or so, a series of contracts that 
have been concluded by--I think the Turks have their contracts 
with Russian companies. The Egyptians have some contracts. And 
the Gulf GCC decided I think in 2005 as well to kind of enhance 
their civilian nuclear infrastructure. So we are already seeing 
hedging behavior, and it--this is a long-term process. It'll 
last decades.
    So I think this will perhaps reinforce this trend, but the 
trend really is already underway. But, again, it's in the form 
of creating civilian infrastructures which are inherently dual-
use, and then, down the road, you know, countries have options. 
But this is going to be a very long-term thing, and I think the 
administration made a mistake in thinking that if you prevent 
Iran from getting the bomb, then you can prevent a 
proliferation cascade. But the problem is, you know, people 
hedge before that. They don't wait until you already got the 
bomb. And if you have a robust infrastructure, that is the 
trigger for kind of a proliferation cascade of similar 
infrastructures throughout the region. And that is already 
underway. So----
    Mr. Singh. And, you know, Mr. Chairman, right now, the 
United States seems to love timetables. We set a timetable for 
withdrawal from Afghanistan. We set a timetable in Iraq. This 
agreement has a timetable as well. It has these sunset clauses. 
After 10 years, you know what restrictions are going to be 
lifted from Iran. After 15 years, you know what restrictions 
are going to be lifted. And so if you are another country in 
the region, those restrictions being lifted isn't based--they 
are not based on Iranian performance. It's not based on the 
IAEA having a finding that Iran's program is exclusively 
peaceful. It is just based on the passage of time. And so you 
have got to circle that date on your calendar and say: By this 
date I have to make certain assumptions about where Iran will 
be and what it might do. And you have got to then plan against 
that.
    And my worry is, look, there is no impediment, really, to 
them doing that. There is no impediment to them starting up 
their own programs. And they certainly have the means and the 
resources to do that. It is not easy, but they have a lot of 
resources at their disposal, as Secretary Kerry has noted.
    The Chairman. Okay. All very helpful.
    Obviously, this is a big vote for all Members, and I really 
appreciate your all's insights in helping us work our way 
through many of these issues. So thank you, again, for being 
here.
    With that, the hearing stands adjourned.
    [Whereupon, at 12:35 p.m., the committee was adjourned.]

?

      
=======================================================================




                            A P P E N D I X

                             July 29, 2015
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 29, 2015

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
 

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 29, 2015

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. SHUSTER

    Mr. Shuster. The unfortunate reality of this deal is that it does 
nothing to slow down Iran's development of ballistic missiles. This is 
a country that has managed to develop advanced missile technology even 
under the weight of U.S. sanctions, which makes it even more likely 
that they will speed development once those barriers are lifted, 
creating a direct threat to Israel regardless of whether Iran possesses 
nuclear weapons. Given this danger, how do you believe the United 
States should better support our allies in the region in the area of 
missile defense?
    Mr. Singh. The U.S. approach to missile defense in the Middle East 
should comprise four broad elements:
    <bullet>  Ensuring our allies exploit their existing capabilities 
in early warning and missile defense and have access to any additional 
required technological training or support necessary to counter missile 
threats from Iran, its proxies, and elsewhere;
    <bullet>  Coordinating the integration of regional missile defenses 
to enhance the capability and deterrent effect of those defenses;
    <bullet>  Using sanctions and other tools to prevent Iran and other 
potential adversaries from developing advanced missile capabilities, 
especially intercontinental ballistic missiles (ICBMs);
    <bullet>  Preventing the proliferation of missile and rocket 
technology from Iran to proxies such as Hezbollah, Palestinian Islamic 
Jihad (PIJ), Hamas, and others;
    The nuclear deal does not require Iran to refrain from missile and 
proliferation activities. Instead, the deal in-fact eases the arms and 
missile sanctions on Iran in five and eight years, respectively, making 
the above efforts all the more important and urgent. They should be 
undertaken with renewed vigor in the context of sensible investments in 
the U.S. global defense posture and in the advancement of our own 
missile defense technology.
    Mr. Shuster. For years, Israel has been defending itself from 
rocket attacks launched by terror groups that receive support from 
Iran. Indeed, Hamas has been directly assisted by Iran with the 
provision of technology to develop Fajr-5 missiles, which have been 
fired at civilians in Tel Aviv. Under this agreement, Iran will have 
free reign to continue building their arsenal of conventional munitions 
and missiles, which they can then continue providing to terror groups 
like Hamas for the purpose of attacking Israel. To date, Israel has 
relied on the Iron Dome system, which makes use of Patriot Missile 
batteries, to defend itself, but it is going to face an even greater 
challenge under this deal. Would the provision of additional Patriot 
batteries help Israel in the face of heightened rocket attacks?
    Mr. Singh. Congress has demonstrated leadership on this issue by 
consistently providing funding for Israeli missile defense. This 
includes the Iron Dome system, which targets short-range rockets, 
artillery, and mortars; the David's Sling system, which targets medium-
range rockets and missiles; and the Arrow missile system, which targets 
longer-range and higher-altitude ballistic missiles.
    The United States should continue to engage in continuous dialogue 
with the Government of Israel to ensure that together we are countering 
the existing threats posed by Iran, its proxies, and other adversaries 
in addition to anticipating future threats. This will require further 
investments in existing and new technologies as well as inintelligence 
on the threats that we jointly face. Our bilateral dialogue should also 
be conducted in the context of a broader effort to ensure Israel's 
security, integrate regional missile defenses and promote regional 
security cooperation to counter the missile and proliferation threats 
posed by Iran and others.
    Mr. Shuster. Sanctions imposed on the Islamic Republic of Iran have 
had a dramatic effect on the nation's economy: revenue from oil exports 
have plummeted; its currency value has eroded, and disruptions to trade 
have resulted in business closures and inflation. In the face of this 
turbulent economic situation, Tehran has still managed to speed missile 
development and shore up their conventional munitions, with the 
intended aim of revitalizing their military in the coming decades. 
Without sanctions, it is likely that they will be able to achieve both 
these goals in a shortened amount of time. Do you believe this deal 
will result in Iran being able to more easily divert weapons and 
material to regional terror groups?
    Mr. Singh. As noted in my written testimony, I am concerned that 
the Joint Comprehensive Plan of Action (JCPOA) could worsen Iran's 
destabilizing regional activities in three respects:
    <bullet>  Providing Tehran with new financial resources with which 
it can support proxies and boost its security spending;
    <bullet>  Easing sanctions on the transfer of arms from and to 
Iran, and on the provision of missile technology to Iran, potentially 
paving the way for greater cooperation between Iran and international 
partners such as Russia and China;
    <bullet>  Emboldening those elements of the Iranian state, such as 
the Islamic Revolutionary Guards Corps (IRGC) which are most directly 
involved in destabilizing regional activities and provoking reactions 
by Iran's regional rivals which serve to deepen the region's existing 
conflicts.
    In the wake of the JCPOA's adoption, it will be vital that the 
United States not merely adopt a strategy of hoping these things do not 
just come to pass, but to ensure that Iran faces steep costs for 
pursuing destabilizing activities and supporting terrorism in efforts 
to incentivize Iranian leaders to choose more constructive approaches 
to the region.
    Mr. Shuster. The Department of Defense has steadily transitioned to 
an expeditionary force over the last 20 years, significantly reducing 
our overseas steady-state footprint. What impacts will a nuclear-
capable Islamic Republic of Iran and a missile-saturated region have on 
future U.S. force posture? Do you foresee a necessary growth in defense 
spending to field a differently shaped or equipped force?
    Mr. Eisenstadt. One of the ironic consequences of the nuclear deal 
with Iran is that it will likely deepen America's involvement in the 
region as a security provider for years to come. In the wake of the 
deal, the U.S. has pledged to become more actively involved in 
assisting its partners in interdicting destabilizing Iranian arms 
transfers to its proxies and allies, and the growing missile threat 
will result in increased U.S. transfers of missile defenses to the 
region, and its continued involvement as an integrator of regional 
missile defenses.
    Moreover, in the long run, the likelihood that countries in the 
region will engage in nuclear hedging--building their own civilian 
nuclear infrastructure--to counter Iran's declared nuclear 
infrastructure, will also likely cause the United States to offer these 
countries ever larger conventional arms packages or other types of 
security assurances to dissuade them from moving forward with nuclear 
programs of their own. Thus, the deal is likely to accelerate the 
conventional arms race now underway in the region, and perhaps 
eventually lead to a nuclear arms race there.
    Finally, Iran's growing missile capabilities will make the Persian/
Arabian Gulf a much more challenging environment for the U.S. 
military--the Navy in particular--which will be operating in an 
environment saturated by Iranian low- and high-end anti-access/area 
denial capabilities. And as the accuracy of Iranian missiles increases, 
the U.S. will have to spend a lot more on hardening and dispersing its 
infrastructure in the region, to protect it from this growing threat.
    Mr. Shuster. Buried within Annex 3 of the nuclear deal, sections 
10.1 and 10.2 commit the P5+1 parties to cooperate with Iran in 
strengthening the protection of their nuclear program. To what extent 
do you believe the P5+1 parties should assist in this capacity and what 
are the implications to the United States should Iran fail to comply 
with the mandates of this agreement? Does strengthening Iran's defenses 
disadvantage the U.S. in the long-term?
    Mr. Eisenstadt. The nuclear deal envisages the possibility of EU 
and P5+1 assistance to Iran to protect its nuclear infrastructure 
against sabotage. This may help Iran entice world-class information 
technology (IT) consultants, firms, and state entities to help it 
thwart the kind of cyber spying that is necessary prelude for hostile 
offensive cyber operations. Indeed, it was a Belarus-based firm working 
for an Iranian state entity that discovered the Stuxnet malware. The 
nuclear accord may thus enable Iran to more effectively counter one of 
the most effective means of gathering information available to its 
adversaries, greatly complicating U.S. and allied efforts to detect 
future Iranian clandestine activities. This may also deny the United 
States and its allies of one of the few non-kinetic means of disrupting 
an attempted Iranian breakout, at a time when U.S. kinetic options may 
be increasingly limited, for a variety of political and military 
reasons. (On the other hand, the employment of foreign consultants, 
firms, or state entities creates security risks for Iran, and 
opportunities for foreign intelligence services, though Iran will 
undoubtedly try to manage this risk, if they continue to rely on 
foreign consultants for IT trouble-shooting.) For these reasons, it 
would be highly desirable that the EU and P5+1 not assist Iran in these 
areas. Even if the parties to the agreement act with restraint, it may 
be very hard to keep unscrupulous private IT consultants from offering 
their services to Tehran, and helping it improve its counter-cyber 
capabilities.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. WALZ
    Mr. Walz. In your view, what are the shortcomings and risks 
associated with the Joint Comprehensive Plan of Action? What benefits 
to the United States and our allies do you believe this agreement 
offers?
    Mr. Singh. In my written testimony, I offer a thorough analysis of 
the JCPOA's likely implications. To summarize:
    <bullet>  The JCPOA contains provisions which will result in 
enhanced monitoring at Iran's declared nuclear facilities and of its 
nuclear supply chain;
    <bullet>  It also offers a provision to ``snap back'' previous UN 
sanctions on Iran that is not subject to veto by a member of the P-5 in 
the UN Security Council, and does not require that U.S. sanctions be 
lifted for the first eight years of the accord;
    <bullet>  It also requires Iran to recommit not to acquire nuclear 
weapons (having already done so by signing up to the NPT), or to engage 
in certain specified activities applicable to developing a nuclear 
explosive device;
    <bullet>  However, the agreement does not require Iran to dismantle 
any of its nuclear fuel fabrication infrastructure, apart from swapping 
out the core of the Arak heavy water reactor. Key facilities, including 
Arak, Natanz, and Fordow, remain operational;
    <bullet>  Nor does the agreement apparently require Iran to make a 
full declaration of its past or current weaponization activities, or 
provide related access to facilities, personnel, and documentation;
    <bullet>  Not only does the agreement fail to impose any 
limitations on Iran's nuclear-capable ballistic missile activities, it 
additionally drops the previous ban on Iranian missile activities and 
pledges the lifting of missile-related sanctions on Iran in eight 
years;
    <bullet>  The agreement does not, in my opinion, provide sufficient 
or timely access to suspect (undeclared) nuclear sites, nor does it 
stipulate any punishment for Iranian violations besides the full 
snapback of sanctions, which parties to the agreement are likely to be 
reluctant to exercise except in the case of major violations;
    <bullet>  Even the restrictions that the JCPOA does place on Iran 
expire in five to fifteen years, leaving open the prospect that by 2030 
Iran would face no limits on its nuclear activities short of its broad 
NPT pledge not to pursue nuclear weapons. This would nevertheless 
enable Iran to expand its nuclear activities so that it is poised at 
the cusp of a nuclear weapon with near-zero breakout time;
    <bullet>  The agreement does not address Iran's regional behavior. 
It will provide Iran with tens of billions of dollars in cash and 
meanwhile, in five years it will lift sanctions on the provision of 
arms to Iran. This is likely to be destabilizing in itself and produce 
a reaction from Iran's regional rivals that may prove further 
destabilizing;
    <bullet>  Finally, from the point of view of U.S. policy, the 
agreement is not seemingly connected to a comprehensive American 
strategy for the Middle East or nonproliferation.
    It is essential that the Obama Administration or the next 
administration devise policies to address these shortcomings, given the 
likelihood that the deal will be adopted and implemented on schedule.
    Mr. Walz. In your opinion, do you believe this agreement will ``tip 
the balance of power'' toward the Islamic Republic of Iran and create a 
nuclear arms race in the Middle East?
    Mr. Singh. Iran's regional strategy has long focused on cultivating 
asymmetric and anti-access/area denial capabilities to counter regional 
rivals, the United States, and our allies. This strategy has included 
funding, training, and equipping proxy non-state actors such as 
Hizballah and Palestinian Islamic Jihad, and partnering with the Syrian 
regime. It has also comprised the development of missile, fast boat, 
and other capabilities that put freedom of navigation and regional 
security in the Gulf at risk. Iran's nuclear capabilities--which the 
JCPOA permits and which may be expanded upon the expiration of the 
JCPOA's restrictions--leave open the possibility that in the future it 
will possess a nuclear weapon, which would give Tehran additional 
resources to pursue its regional strategy with impunity. The agreement 
also provides an influx of funds to Iran and pledges to alleviate 
sanctions on arms and missile in five and eight years, respectively.
    It is likely that the deal will therefore strengthen Iran in its 
neighborhood--both the Middle East and South and Central Asia. This 
could incentivize its rivals to take action to counter Iranian regional 
activities and perhaps pursue nuclear capabilities that at least match 
Iran's. It is essential that the United States work with our allies to 
devise a common approach to countering Iran and other regional threats 
so that these responses to the JCPOA do not themselves further 
contribute to regional instability.
    Mr. Walz. There is an ongoing debate if this agreement truly does 
allow for ``24/7'' monitoring and inspections. Do you believe that this 
agreement will truly permit the P5+1 to monitor and inspect Iran 
facilities and programs to prevent the proliferation of a nuclear 
weapon?
    Mr. Eisenstadt. I believe that the provisions of the nuclear 
agreement provide very robust monitoring of declared Iranian nuclear 
facilities. My main concern concerns possible covert facilities related 
to a clandestine nuclear program. While it would be very difficult for 
Iran to build a parallel clandestine program now without getting 
caught, I think its prospects improve greatly in the out years--10-15 
years from now, and after.
    And the provisions of the agreement will make it hard to 
investigate possible covert sites related to a potential clandestine 
program. For instance, if the U.S. or other countries obtain 
information regarding possible covert facilities in Iran, it will be 
necessary to conduct inspections to verify these reports. The elaborate 
procedures outlined in the agreement for visits to suspicious sites, 
and repeated statements by Iranian officials that International Atomic 
Energy Association (IAEA) inspectors will not be allowed to visit 
military facilities, could create substantial obstacles to timely 
access. And by repeatedly stating that IAEA inspectors will not be 
allowed to visit military sites (which have in the past been used to 
host nuclear facilities), Iran has set a very high bar for access. As a 
result, the U.S. and the IAEA will likely demand access to such 
facilities only rarely, given the potential for friction and tension 
this could entail, potentially creating sanctuaries where proscribed 
activities can occur beyond the prying eyes of inspectors.
    Moreover, the ability of the IAEA to follow up intelligence reports 
regarding clandestine activities will be greatly diminished if disunity 
or diverging interests among the EU and the P5+1 undermine the efficacy 
of the monitoring arrangements described in the nuclear agreement. For 
instance, in the event that IAEA inspectors are denied access to a 
site, five of eight members of the Joint Commission established by the 
agreement need to agree on a means to resolve the IAEA's concerns 
(Article 78). If they are unable to do so, due to political 
differences, the inspection effort will languish. This is what happened 
in Iraq in the late 1990s, when diverging interests among the P5 
eventually hamstrung UN weapons inspections and efforts to resolve 
remaining questions about possible residual Iraqi WMD capabilities 
(e.g., possible stocks of the chemical agent VX).
    And if Iran decides to build an industrial scale nuclear program 15 
years from now, it will be even harder at that time to detect possible 
covert sites and clandestine activities, given all the permitted 
nuclear activities that will be occurring in the country by then.

                                  [all]
</pre></body></html>
